<html>
<title> - ENSURING EFFECTIVE AND EFFICIENT OPERATIONS: A REVIEW OF THE FISCAL YEAR 2020 DHS MANAGEMENT DIRECTORATE BUDGET REQUEST</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


  ENSURING EFFECTIVE AND EFFICIENT OPERATIONS: A REVIEW OF THE FISCAL 
          YEAR 2020 DHS MANAGEMENT DIRECTORATE BUDGET REQUEST

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         OVERSIGHT, MANAGEMENT,
                           AND ACCOUNTABILITY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                             APRIL 3, 2019
                               __________

                           Serial No. 116-10
                               __________

       Printed for the use of the Committee on Homeland Security
                                     

                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                    
        Available via the World Wide Web: http://www.govinfo.gov
        
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
36-399 PDF                WASHINGTON : 2019           

                               __________

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           John Ratcliffe, Texas
J. Luis Correa, California           Mark Walker, North Carolina
Xochitl Torres Small, New Mexico     Clay Higgins, Louisiana
Max Rose, New York                   Debbie Lesko, Arizona
Lauren Underwood, Illinois           Mark Green, Tennessee
Elissa Slotkin, Michigan             Van Taylor, Texas
Emanuel Cleaver, Missouri            John Joyce, Pennsylvania
Al Green, Texas                      Dan Crenshaw, Texas
Yvette D. Clarke, New York           Michael Guest, Mississippi
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 ------                                

       SUBCOMMITTEE ON OVERSIGHT, MANAGEMENT, AND ACCOUNTABILITY

              Xochitl Torres Small, New Mexico, Chairwoman
Dina Titus, Nevada                   Dan Crenshaw, Texas, Ranking 
Bonnie Watson Coleman, New Jersey        Member
Nanette Diaz Barragan, California    Clay Higgins, Louisiana
Bennie G. Thompson, Mississippi (ex  Van Taylor, Texas
    officio)                         Mike Rogers, Alabama (ex officio)
                Lisa Canini, Subcommittee Staff Director
            Katy Flynn, Minority Subcommittee Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Xochitl Torres Small, a Representative in Congress 
  From the State of New Mexico, and Chairwoman, Subcommittee on 
  Oversight, Management, and Accountability:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Dan Crenshaw, a Representative in Congress From the 
  State of Texas, and Ranking Member, Subcommittee on Oversight, 
  Management, and Accountability:
  Oral Statement.................................................    19
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                               Witnesses

Mr. Chip Fulghum, Deputy Under Secretary for Management, 
  Department of Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Mr. Chris Currie, Director, Homeland Security and Justice Team, 
  Government Accountability Office:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12

                                Appendix

Questions From Chairwoman Xochitl Torres Small for Chip Fulghum..    31
Questions From Chairman Bennie G. Thompson for Chip Fulghum......    33
Questions From Ranking Member Dan Crenshaw for Chip Fulghum......    35
Questions From Chairwoman Xochitl Torres Small for Chris Currie..    39
Questions From Chairman Bennie G. Thompson for Chris Currie......    41
Questions From Ranking Member Dan Crenshaw for Chris Currie......    42

 
  ENSURING EFFECTIVE AND EFFICIENT OPERATIONS: A REVIEW OF THE FISCAL 
          YEAR 2020 DHS MANAGEMENT DIRECTORATE BUDGET REQUEST

                              ----------                              


                        Wednesday, April 3, 2019

             U.S. House of Representatives,
                    Committee on Homeland Security,
                    Subcommittee on Oversight, Management, 
                                        and Accountability,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:33 p.m., in 
room 310, Cannon House Office Building, Hon. Xochitl Torres 
Small [Chairwoman of the subcommittee] presiding.
    Present: Representatives Torres Small, Titus, Barragan, 
Crenshaw, Higgins, and Taylor.
    Ms. Torres Small. The Subcommittee on Oversight, 
Management, and Accountability will come to order. The 
subcommittee is meeting today to receive testimony on the 
fiscal year 2020 DHS Management Directorate budget request.
    Good afternoon and welcome. I know we are just coming from 
votes so we will be having more people come in as we proceed, 
but I want to make sure because we have a lot to discuss so I 
wanted to get started as soon as possible.
    The hearing today will examine the President's budget 
request for the Department of Homeland Security's Management 
Directorate.
    DHS Management may not grab headlines like Secret Service, 
Coast Guard, Border Patrol and other operational components, 
but the men and women who staff the Department's front office 
are every bit as important to the vision and direction of the 
DHS enterprise.
    From budgeting to procurement and human resources to 
information technology, the Management Directorate provides the 
structure that is needed for DHS to be an effective and 
efficient organization. The President's proposed budget seeks 
nearly $1.6 billion for the Management Directorate in fiscal 
year 2020.
    This funding would allow the chief readiness support 
officer to continue to consolidate Department personnel at the 
St. Elizabeths campus, the largest construction project in the 
Washington Metro since the Pentagon was built during World War 
II.
    The budget would give the chief financial officer 
additional resources to overhaul the Department's woefully 
outdated financial systems, so that from an accounting 
standpoint at least, DHS components can work from a common 
operating picture.
    The budget also proposes funding for new tools the chief 
human capital officer could use to recruit and retain top 
cybersecurity talent, no small task for the Department that is 
competing against other Federal agencies and tech companies in 
Silicon Valley.
    All of these projects are worthy initiatives that deserve 
Federal funding. But as the Government Accountability Office, 
GAO, has identified over the years, a number of existing 
programs and projects with large budget requests have been 
plagued by lengthy delays and repeated cost overruns spanning 
multiple budget cycles.
    The St. Elizabeths project, for instance, was initially set 
for completion in 2016. Now, after more than $2 billion has 
been spent, we are told that it won't be finished until 2026 at 
the earliest, 10 years behind schedule.
    The Department's financial systems modernization has faced 
similar challenges. Original cost estimates for upgrades at the 
three operational components--the Countering Weapons of Mass 
Destruction Office, the Transportation Security Administration 
and Coast Guard--were pegged at $90 million.
    That work is still not complete. FSM faces additional 
delays as a result of the recent Government shutdown, and the 
administration is now asking for another $120 million in fiscal 
year 2020.
    We see the same story with the Department's Human Resources 
Information Technology, HRIT program, as an investment that 
began in 2003 and has made limited progress over the past 15 
years. DHS has requested another $10 million for HRIT in the 
fiscal year 2020 budget proposal.
    I don't want to discredit these projects or their 
importance. But I would like to see evidence that the 
Department has learned from its past mistakes and is better 
positioned in the future.
    I am also concerned that the Department continues to 
operate without its Quadrennial Homeland Security Review, or 
QHSR, which is now 15 months overdue. While I understand that 
the Management Directorate is not responsible for its delivery 
to Congress, I wonder how it plans for the Department's future 
and proposes a budget without a vision for the agency set forth 
in a QHSR.
    To both of our witnesses, I thank you for your time and 
your testimony.
    Mr. Fulghum, I understand that you will be leaving the 
Department this summer. On behalf of this committee, I want to 
thank you for your service to DHS and to our country over the 
past 6\1/2\ years.
    Your departure speaks to the challenges the Department 
continues to face in terms of unity, vision, and morale. As we 
move forward, I welcome any ideas you have for improving 
cohesion across the Department and strengthening the DHS's key 
management functions. I look forward to a fruitful discussion 
with you this afternoon.
    [The statement of Chairwoman Torres Small follows:]
              Statement of Chairwoman Xochtil Torres Small
                             April 3, 2019
    Today's hearing will examine the President's budget request for the 
Department of Homeland Security's Management Directorate. DHS 
Management may not grab headlines like Secret Service, Coast Guard, 
Border Patrol, and other operational components, but the men and women 
who staff the Department's front office are every bit as important to 
the vision and direction of the DHS enterprise.
    From budgeting to procurement and human resources to information 
technology, the Management Directorate provides the structure that's 
needed for DHS to be an effective and efficient organization. The 
President's proposed budget seeks nearly $1.6 billion for the 
Management Directorate in fiscal year 2020. This funding would allow 
the chief readiness support officer to continue to consolidate 
Department personnel at the St. Elizabeths campus--the largest 
construction project in the Washington Metro since the Pentagon was 
built during World War II.
    The budget would give the chief financial officer additional 
resources to overhaul the Department's woefully outdated financial 
systems, so that from an accounting standpoint at least, DHS components 
can work from a common operating picture. The budget also proposes 
funding for new tools the chief human capital officer could use to 
recruit and retain top cybersecurity talent--no small task for a 
Department that's competing against other Federal agencies and tech 
companies in Silicon Valley. All of these projects are worthy 
initiatives that deserve Federal funding.
    But, as the Government Accountability Office (GAO) has identified 
over the years, a number of existing programs and projects, with large 
budget requests, have been plagued by lengthy delays and repeated cost 
overruns spanning multiple budget cycles. The St. Elizabeths project, 
for instance, was initially set for completion in 2016. Now, after more 
than $2 billion has been spent, we're told it won't be finished until 
2026 at the earliest--10 years behind schedule.
    The Department's Financial Systems Modernization (FSM) has faced 
similar challenges. Original cost estimates for upgrades at three 
operational components--the Countering Weapons of Mass Destruction 
Office, Transportation Security Administration, and Coast Guard--were 
pegged at $90 million. That work is still not complete. FSM faces 
additional delays as a result of the recent government shutdown, and 
the administration is now asking for another $120 million in fiscal 
year 2020.
    We see the same story with the Department's Human Resources 
Information Technology (HRIT) program, an investment that began in 2003 
and has made limited progress over the past 15 years. DHS has requested 
another $10 million for HRIT in the fiscal year 2020 budget proposal. I 
don't want to discredit these projects or their importance. But I would 
like to see evidence that the Department has learned from its past 
mistakes and is better-positioned for the future. I am also concerned 
that the Department continues to operate without its Quadrennial 
Homeland Security Review--or ``QHSR''--which is now 15 months overdue. 
While I understand that the Management Directorate is not responsible 
for its delivery to Congress, I wonder how it plans for the 
Department's future and proposes a budget without a vision for the 
agency set forth in a QHSR.
    To both of our witnesses: I thank you for your time and testimony. 
Mr. Fulghum, I understand that you will be leaving the Department this 
summer. On behalf of this committee, I want to thank you for your 
service to DHS over the past 6\1/2\ years. Your departure speaks to the 
challenges the Department continues to face in terms of unity, vision, 
and morale. I welcome any ideas you have for improving cohesion across 
the Department and strengthening DHS's key management functions. And I 
look forward to a fruitful discussion with both of you this afternoon.

    Ms. Torres Small. We are going to be joined by the Chair 
later, so I will save that recognition for later. Other Members 
of the committee are reminded that under the committee rules, 
opening statements may be submitted for the record.
    [The statements of Ranking Member Crenshaw and Chairman 
Thompson follow:]
                Statement of Ranking Member Dan Crenshaw
                             April 3, 2019
    Thank you to our witnesses for being here. I especially want to 
thank Chip Fulghum for his years of service with DHS and for your 
decades of uniformed service as an Air Force Officer. I, and the 
Nation, are grateful for people like you who place service to country 
above self. I wish you luck in your future endeavors.
    The Department was created from agencies and components of numerous 
other agencies with varied mission sets. At times this has made it very 
difficult for DHS to work as a unified body. Each agency and component 
still has its own requirements and missions, but also must find a way 
to ensure the overall mission of the Department is fulfilled.
    Today we will examine how DHS has been fulfilling its mission and 
the struggles it has encountered as it moves toward a unified 
management structure. Many large agencies have difficulties in managing 
acquisitions and personnel. DHS is no exception. Since its creation, 
DHS has had difficulty with developing and following policies to 
prevent cost overruns and ensure that requirements are met.
    DHS has been taking steps to identify efficiencies and reduce 
duplication by looking for common requirements among the components. It 
has also developed specific steps that must be followed in each major 
acquisition. The problem seems to be oversight of these policies to 
ensure that appropriate action is taken when a problem is identified.
    While we examine the steps DHS has taken, we should also take this 
opportunity to find out what we can do in Congress and in this 
committee to assist DHS in the problems it has been encountering with 
personnel, procurement, and acquisitions, and other issues necessary 
for DHS to accomplish its mission.
    Personnel management at DHS has presented its own unique 
challenges. DHS consistently ranks at the bottom in terms of employee 
morale. According to the Federal Employee Viewpoint Survey (FEVS), DHS 
has typically had declining rates of satisfaction, however, in 2017 it 
increased by 4 percent but remained level in the 2018 survey.
    The most recent survey shows that while 89 percent of employees 
feel their work is important, only 48 percent feel that poor 
performance is dealt with appropriately and only 43 percent felt that 
senior leaders generate high levels of motivation. DHS must figure out 
ways to motivate its employees, and just as, or more importantly, must 
be freer to hire and fire to improve the quality of employed within the 
Department.
    The DHS mission is too important to the National security of our 
country. The management of the Department and the management of each 
component need to make it a priority to improve employee morale and 
treat employees fairly, while at the same time holding substandard 
performers accountable.
    DHS also faces challenges with hiring enough people. This is seen 
most clearly in CBP, which struggles to hire and retain enough 
personnel. Congressional fixes like my Anti-Border Corruption 
Improvement Act and Rep. Torres-Smalls' Rural and Remote Hiring bill 
are good starts to address some of these challenges.
    For the last several years, DHS and GSA have been developing the 
land at St. Elizabeths to create a consolidated headquarters for the 
Department. The Secretary and the management of the Department are 
moving into this location this week; however, there are still a number 
of questions about the direction of this project in the future.
    At a hearing last April, the Department committed to providing an 
updated plan for the future of St. Elizabeths by the end of 2018. This 
updated plan has not yet been provided yet the budget includes a 
request for additional funds for this project. Since this project has 
been plagued with delays and cost overruns, it makes sense for the 
Department to have a solid plan before moving forward.
    DHS still struggles with management of its financial systems, which 
has been an on-going problem. The administration's budget includes a 
request to modernize the systems for certain components of the 
Department and I look forward to hearing how this project is 
developing.
    I recognize the unique challenges this Department has had to 
struggle with since its inception and I commend the management for all 
the progress that has been made toward achieving a unified DHS. We must 
continue to improve, and as we say in the military, always be working 
to better our position.
    What this all comes down to is efficiency. Efficiency in operations 
and efficiency in management. While we discuss this, we should not lose 
sight of the fact that what is happening at the border is the opposite 
of efficient. That may be tough for some of my colleagues to hear, but 
even when at full strength DHS cannot do its job properly when we do 
not act and force them into tasks that are not their mission.
    I look forward to hearing from our witnesses today on how to 
address the challenges that remain.
                                 ______
                                 
                Statement of Chairman Bennie G. Thompson
                             April 3, 2019
    It was just announced that one of the witnesses, Mr. Fulghum, will 
be leaving the Department soon. Mr. Fulghum, I thank you for your 
extraordinary service to DHS over the past 6\1/2\ years, and I wish you 
the best in your future endeavors. I would be remiss however to not 
express my concern regarding what Mr. Fulghum's departure means for the 
direction of the Department. The deputy under secretary for management 
(USM) alongside of the USM, oversees all aspects of the Department's 
management programs, including financial, human capital, information 
technology, procurement, security, and asset management. The current 
USM, Ms. Claire Grady, is also performing the duties of the 
Department's No. 2 official--the deputy secretary.
    DHS has been without a deputy secretary for a year now--and no 
nominee has been named for the position. Without a deputy secretary and 
with a departing deputy USM, I am genuinely concerned about the day-to-
day management of the Department. These vacancies undoubtedly hamper 
the Department's ability to run effectively and efficiently. I urge the 
President to quickly nominate a deputy secretary and hope that someone 
as committed as Mr. Fulghum will soon be appointed to fill his shoes.
    Turning to today's hearing, this is the first hearing the committee 
is conducting to examine the Trump administration's fiscal year 2020 
budget request for the Department of Homeland Security. Before I 
highlight specifics of the Management Directorate's budget proposal, I 
must, once again, express my frustration with the Department's failure 
to deliver the Quadrennial Homeland Security Review--or the QHSR. The 
QHSR is a statutorily required, comprehensive examination of the 
homeland security strategy of the United States. The last time the 
Department produced a QHSR was in June 2014, under the Obama 
administration. Under statute, the Department was to produce a new QHSR 
by December 2017. More than 15 months later--and 5 years since the last 
QHSR--the Trump administration has yet to supply Congress with its 
vision and priorities for the Department.
    In response to a question for the record, submitted after a full 
committee hearing on the President's fiscal year 2019 budget request, 
DHS stated that it ``recognizes the critical role the QHSR plays in 
shaping the functions and priorities for the Department,'' and that it 
``anticipates releasing the 2018 QHSR in early 2019 and will use the 
report to support the Department's future year budget planning 
efforts.'' Yet, we still do not have the QHSR. While the Management 
Directorate is not specifically responsible for drafting the QHSR, I am 
unsure what was used to formulate DHS's budget proposal in its absence. 
I sincerely hope that the QHSR is delivered before the full committee 
hearing on the overall Department budget request with Secretary Nielsen 
next month.
    Turning to the Management Directorate's programmatic budget 
requests, I am pleased that many of the management and operational 
challenges that this subcommittee has focused on for years would be 
funded in the President's proposal. For example, the request seeks $5.6 
million to launch a Cyber Talent Management System to enhance DHS's 
efforts to attract top cyber talent. The request also seeks $224 
million for the St. Elizabeths Headquarters Consolidation Project, 
which was intended to consolidate DHS operations, sustain a ``One DHS'' 
culture, and improve Department morale. Although I do have concerns 
regarding the St. Elizabeths project's continued cost overruns and 
schedule delays, I am hopeful that appropriate and consistent funding 
will help bring this project to fruition. On the topic of morale, for 7 
years in a row DHS has ranked last among large agencies on the list of 
Best Places to Work in the Federal Government.
    Therefore, I fully expect that a decent portion of the $126 million 
request for the Office of the Chief Human Capital Officer will be 
allocated toward improving morale among DHS's more than 240,000 
dedicated employees. I recently reintroduced the ``DHS MORALE Act'' to 
require the development and implementation of policies related to 
leadership development, employee engagement, career progression, and 
other efforts to improve morale at DHS. I look forward to working with 
the Chief Human Capital Officer on other efforts to address this 
important issue. Last, I look forward to hearing how the Human Capital 
Office plans to use its allocation to increase diversity among the 
Department's workforce so that it will be more reflective of the public 
it serves.

    Ms. Torres Small. So I welcome our panel of witnesses and 
thank them for joining us today.
    Our first witness is Mr. Chip Fulghum who serves as the 
deputy under secretary for management for the Department of 
Homeland Security. Mr. Fulghum has served in many senior 
leadership roles since joining the Department in 2012.
    In his current role, along with the under secretary for 
management, he oversees all aspects of the Department's 
management programs, including financial, human capital, 
information technology, procurement, security, and asset 
management.
    Next--so let us see, next we have Mr. Chris Currie who is a 
director in the Government Accountability Office's Homeland 
Security and Justice team. Mr. Currie has joined GAO in 2002 
and currently leads the agency's work on management, National 
preparedness, and emergency management issues, including 
efforts to strengthen DHS Management functions.
    Without objection, the witnesses' full statements will be 
inserted into the record. I now ask each witness to summarize 
his statements for 5 minutes, beginning with Mr. Fulghum.

     STATEMENT OF CHIP FULGHUM, DEPUTY UNDER SECRETARY FOR 
          MANAGEMENT, DEPARTMENT OF HOMELAND SECURITY

    Mr. Fulghum. Good afternoon, Chairwoman Torres Small and 
Ranking Member Crenshaw and distinguished Members of the 
subcommittee. Thank you for the opportunity to appear before 
you today to discuss Management's fiscal year 2020 budget 
request.
    It is a privilege for me to sit alongside Chris Currie of 
GAO as someone who I have worked closely with over the last few 
years. We deeply appreciate the work that they do each and 
every day for us. As I often say to GAO, GAO is like a personal 
trainer to me. I may not always like the workout, but the 
result always makes us better.
    That is clearly evidenced by GAO's most recent GAO High-
Risk Report which shows Management functions as the only high-
risk areas to meet the majority of the criteria for removal. We 
have now fully or mostly addressed 21 of the 30 outcomes and 
continue to make good progress. Leadership remains steadfast in 
its commitment to get off the GAO high-risk list.
    Our 2020 budget request supports the priorities of the 
Department built around three simple goals: Deliver excellence, 
enable the mission, and foster innovation. We do this by 
driving efficiency, strong stewardship, strengthening our 
acquisition oversight, and leveraging the Department's buying 
power. We built an integrated framework across all lines of 
business to do this.
    I would like to take just a couple of minutes to highlight 
a few of those initiatives that are in our budget request. Good 
stewardship starts with strong internal controls, reliable 
financial reporting, and modern financial systems. I am proud 
to say that the Department earned its sixth straight clean 
opinion in its 15-year history this past year.
    We continue to strengthen our internal controls over 
financial reporting. We are the only Department required by law 
to get a clean opinion over those internal controls.
    We have driven our material weaknesses down from 10 in 2008 
to 2 today with a plan to clear those by 2020. This continued 
success depends on a modernized financial system. Since our 
cutover from IBC in 2017, we have hit every milestone and CWMD 
is now up and running in our environment.
    As you stated, regrettably, while the shutdown has 
unavoidably impacted the program, we still expect full 
functionality of the system to deliver in the second quarter of 
2020 by its quarter 1. Our continued sustained efforts to 
mature the Department's acquisition process to deliver 
capability and to continue to make improvements.
    Our JRC is operational. All programs have approved 
baselines and cost estimates. We have increased our program 
reviews. We have developed better performance metrics and now 
we have an acquisition program health assessment. We have 
improved our cost-estimating process and now have a strategic 
sourcing vehicle available for all components.
    We remain focused on delivering a modern and reliable H.R. 
system. Our approach to H.R. system remains the same. Strong 
Departmental governance, we need to drive data, consistency, 
and policy consistency.
    When we update and modernize our systems we need to make 
sure we are using a shared service approach that makes both 
operational and business sense, all the while while reducing 
redundancy, which we have continued to to.
    We remain laser-focused on improving our I.T., to modernize 
our aging infrastructure. Cybersecurity remains a full-contact 
sport for us and we are continuing to deploy CDM, Windows 10, 
and a variety of tools to improve our posture.
    Our SOC optimization initiative will deliver consistent 
policy tools and CONOPS for the 17 SOCs that operate within the 
Department, and ultimately we will look to collocate those 
SOCs.
    We will continue to push for data center consolidation and 
look for additional savings as well as push to get to the 
cloud.
    Our budget includes $224 million for the outfitting portion 
to build a state-of-the-art cybersecurity and infrastructure 
protection facility on the St. E's campus as we continue to 
build out that campus.
    We are excited to report that we began to move there on 
Monday. I was one of the first ones there. So far so good. The 
Secretary will be there in 2 weeks and we will finish that move 
by the end of this month.
    We stay focused on our larger NCR consolidation project and 
our field efficiency initiatives Nation-wide to meet mission 
needs, look for Federal space wherever possible, collocate and 
shared services and look for long-term lease, all the while, 
while reducing cost.
    Finally, none of this is possible without the men and women 
who serve in the Management Directorate and throughout our 
functional lines of business in the Department. We will 
continue to invest in our people.
    Chairwoman Torres Small, thank you for the opportunity to 
be here today, and I look forward to answering your questions.
    [The prepared statement of Mr. Fulghum follows:]
                   Prepared Statement of Chip Fulghum
                             April 3, 2019
    Chairwoman Torres Small, Ranking Member Crenshaw, and distinguished 
Members of the subcommittee, thank you for the opportunity to appear 
before you today to discuss the fiscal year 2020 budget request for the 
Management Directorate within the U.S. Department of Homeland Security 
(DHS).
    DHS is charged with protecting the American people, our homeland, 
and our values from the many threats we face. To meet our goals, we 
rely on the dedication of more than 240,000 employees in jobs ranging 
from aviation and border security to emergency response and 
cybersecurity. Our umbrella is wide, our duties are diverse, and our 
goal is clear--keeping the Nation safe.
    The Department has an expansive mission set: Preventing terrorism 
and enhancing security; securing our borders; enforcing immigration 
laws; securing cyber space; preserving and upholding the Nation's 
prosperity and economic security; and ensuring disaster response and 
resilience. The pace of innovation, our hyper connectivity, and our 
digital dependence have created new paths for our enemies to exploit. 
This condition results in a world where threats are more numerous, more 
widely distributed, highly networked, increasingly adaptive, and 
incredibly difficult to root out. The Department's fiscal year 2020 
budget request is an important step in the right direction, ensuring 
our men and women have the resources required to achieve our mission.
    The Management Directorate is a key enabler of the DHS mission. We 
ensure that operational components have the capabilities needed to 
protect the homeland. We deliver excellence in mission support by 
driving efficiencies, strengthening acquisition oversight, and 
continuing to implement timely, common-sense policies and procedures. 
We are seeking to obtain the needed human and financial resources at 
the right time; deploy secure, leading-edge technology; acquire high-
quality products and services by leveraging the Department's buying 
power; and secure and protect the Department's human and physical 
assets from external and internal threats.
    To ensure that we evolve to address ever-changing dangers and 
remain effective in this area, the Management Directorate developed a 
set of strategic priorities, a cross-cutting roadmap informed by the 
DHS Unity of Effort initiatives and the DHS Strategic Plan. By using 
these paradigms to shape all of our management functions and resource 
needs, we are able to create synergies between our Lines of Business, 
resulting in first-in-Government approaches to the way we manage 
resources, acquire goods and services, secure systems and networks, and 
attract and hire talent.
    Our priorities are grouped into three goals: Achieve Operational 
Excellence, Enable Mission Delivery, and Shape the Future.
    Achieve Operational Excellence focuses on the Management 
Directorate's operations that contribute to the Department's ability to 
accomplish its mission on a daily basis. This includes serving as 
stewards for funding and investments and getting the most out of our 
resources; hiring, developing, and retaining employees; providing 
effective and efficient business solutions; and providing modern, 
reliable, and secure information technology infrastructure. In fiscal 
year 2018, DHS received a clean audit opinion on its financial 
statements for the sixth consecutive year and continues to strengthen 
and mature internal control processes. DHS is the only Federal agency 
required by law to obtain an opinion on internal controls over 
financial reporting. In addition, the Department only has 2 material 
weaknesses, down from 10 in 2007. In support of continued success and 
good stewardship, DHS has requested $120 million in the fiscal year 
2020 budget request for Financial Systems Modernization, which will 
continue on-going work to improve systematic internal controls, 
standardize business processes, strengthen cybersecurity, maintain 
audit sustainability, and provide accurate and timely financial 
reporting. The requested funding will enable the Management Directorate 
to staff the Joint Program Management Office fully.
    Acknowledging that our workforce is our most important asset, the 
Management Directorate's fiscal year 2020 budget request asks for $10 
million for Human Resource Information Technology. This funding will 
advance acquisition projects to improve talent development and 
training, data management and sharing, position management, employee 
accountability and performance, employee relations, labor relations, 
and H.R. document and records management. We are also requesting $11 
million for the Cyber Talent Management System to create a new 
personnel system that will provide the cyber workforce this country 
needs through an update of the current classification system. By 
launching this new, innovative system, the Management Directorate will 
be taking full advantage of the flexibilities offered by the Border 
Patrol Agent Pay Reform Act, and position DHS to compete for top talent 
in the ever-changing field of cybersecurity, likely serving as a model 
for future civil service reform. To further support our workforce, the 
Department has also established the H.R. Academy, which provides 
training and other resources to promote professional development and 
exchange best practices across the DHS enterprise. Through this 
collaborative effort, we are strengthening our human capital community 
and in turn, increasing the Department's mission capability.
    DHS also recognizes the need to deliver a safe and secure workplace 
and support the use of proactive measures to identify threats before 
they occur. As such, the fiscal year 2020 Management Directorate Budget 
Request includes $3 million for Continuous Evaluation (CE), which will 
provide continuous vetting and increase our CE information. With this 
funding, Security Specialists will be able to vet 50 percent of our 
cleared population on a continuous basis. In addition to CE, the 
Department also monitors the workforce for insider threats, where an 
employee may use his or her authorized access to knowingly or 
unknowingly do harm to the security of the United States.
    The second priority, Enable Mission Delivery, focuses on how we 
conduct our business and covers the Management Directorate's 
enterprise-wide responsibilities. This priority includes leading 
effective oversight of acquisitions, leveraging the Department's buying 
power through strategic sourcing and business process improvements, 
engaging in procurement innovation, and implementing Department-wide 
plans to enhance Line-of-Business performance.
    Through our Field Efficiencies initiative, the Management 
Directorate is leveraging the buying power of DHS, identifying cost-
saving and cost-avoiding approaches, such as relocating to reduce 
costs, both of which will help stretch operational components' budgets. 
For example, the Federal Emergency Management Agency's relocation 
planning in Boston will result in a cost avoidance of $3.2 million 
annually beginning in fiscal year 2020. In Seattle alone, the 
integrated workplace planning is projected to avoid $200 million in 
costs over a 30-year period, Department-wide.
    The fiscal year 2020 budget request for the Management Directorate 
includes $2 million for Field Efficiencies initiatives to continue its 
comprehensive planning approach across four areas (Seattle, San Diego, 
Puerto Rico, and Miami), and optimize space to meet operational and 
business needs. By continuing on this path, DHS will increase 
efficiencies and avoid costs by leveraging co-location opportunities, 
such as the consolidation and coordination of assets and shared 
services.
    In addition, our National Capital Region (NCR) Consolidation effort 
(which is more than just the St. Elizabeths campus) also supports this 
goal by reducing costs and increasing productivity by merging scattered 
teams to shared locations, like the General Services Administration's 
(GSA) Regional Office Building in Southwest DC. Combined with GSA's 
constant funding efforts, the Management Directorate's fiscal year 2020 
budget request supports this with $224 million to outfit new 
construction of a state-of-the-art facility for the Cybersecurity and 
Infrastructure Security Agency at the St. Elizabeths campus while 
continuing NCR lease consolidation efforts. Also in the spirit of 
integration, the Office of Biometric Identity Management (OBIM) is 
transitioning to the Management Directorate after the passage of the 
Cybersecurity and Infrastructure Security Agency Act of 2018. We are 
working to finalize the remaining administrative elements to complete 
the transition with several functions already transferred to the 
Management Directorate.
    As a part of the Acquisition Innovation in Motion initiative, 
designed to provide revolutionary approaches to obtaining the goods and 
services the Department needs, the Management Directorate implemented 
the Procurement Innovation Lab (PIL) in 2015. The PIL provides analysts 
with a unique test environment for exploring and refining new 
approaches to acquisition and gives teams an opportunity to put 
innovation into action. Boot camps are also offered for the Federal-
wide acquisition workforce and industry to ensure that the larger 
community can benefit from our experiences and lessons learned, which 
have now spread throughout the Federal Government.
    Over the years, the Management Directorate has made significant 
improvements to the Department's acquisition process, informed by 
feedback from the Government Accountability Office (GAO) and driven by 
common-sense oversight practices. By conducting pilots for five agile 
programs, we were able to identify opportunities for making a more 
streamlined and efficient acquisition process. The Management 
Directorate has made several improvements including developing enhanced 
metrics to monitor program performance on a quarterly basis, and has 
worked with pilot programs to define business value metrics, which are 
reported at each Acquisition Review Board. The Department has also 
modified acquisition document templates to reduce duplication and focus 
on their most important aspects, making them more useful and easier to 
prepare. We also developed a tool that allows stakeholders to review 
and provide input to documents, and track their status in the review 
process. In addition, DHS has also improved program cost estimates by 
establishing an independent cost assessment function and has adopted a 
more accurate and streamlined method for developing Life-Cycle Cost 
Estimates, allowing for more precise performance tracking. We have also 
developed staffing models, and a template for acquisition program 
office staffing.
    The final strategic priority, Shape the Future, focuses on the 
Management Directorate's efforts to foster innovation, encourage 
responsible risk-taking, and collaborate across sectors so the 
Department can take advantage of the next generation of systems and 
technology. Through our Reverse Industry Days, the Department works 
with its private-sector partners to gain their perspectives on the 
Federal acquisition process. These interactive discussions enable 
industry and Government professionals to gain a better understanding 
and appreciation of their respective business processes and the impact 
they have on each other. This type of dialog leads to improvements in 
our acquisition process.
    Also in this area is our work with small businesses. The Management 
Directorate takes pride in providing an opportunity for them to work 
with the Department, which is evidenced by our continued top rating by 
the Small Business Administration (SBA). In 2018, DHS scored an overall 
rating of ``A+'' on the SBA's Small Business Procurement Scorecard. 
This is the ninth year in a row that the Department has scored an 
overall rating of ``A'' or higher. Agencies that obtain an A+ have met 
or exceeded 120 percent of their goals.
    Stepping back and taking a holistic view of our priorities, this 
framework contributes to the management integration challenges 
identified in GAO's High-Risk List report. The funding priorities in 
the fiscal year 2020 budget request also track closely with on-going 
efforts to strengthen the Department and address GAO's High-Risk 
designation. High-Risk List issues are even tracked as critical 
elements within Management's priorities.
    Over the years, DHS has cultivated a strong partnership with GAO 
and the Homeland Security and Justice team, in particular. This 
partnership fosters a common understanding of the work remaining to 
resolve High-Risk List issues and allows senior leaders and experts 
from both organizations to mutually set and manage expectations for 
future progress. Continued engagement with GAO has been instrumental to 
our long-term efforts in further strengthening DHS management 
functions, increasing efficiencies, and achieving removal from the 
High-Risk List. Just last month, GAO published their 2019 High-Risk 
Series, which reported Strengthening Department of Homeland Security 
Management Functions as the only High-Risk Area to have met the 
majority of GAO's criteria for list removal. The report also 
highlighted a consistently positive trend in GAO's ratings for the 
Department against a set of 30 outcomes (or desired end-states 
established by GAO).
    Ultimately, our mission is clear and the roadmap has been set. 
Funding our fiscal year 2020 budget request is critical for the 
Management Directorate to remain the foundation upon which the 
Department rests. Supporting Management will ensure that the operators 
in the field are well-positioned to protect the homeland and the 
American public.
    Chairwoman Torres Small, Ranking Member Crenshaw, and distinguished 
Members of the subcommittee, thank you again for the opportunity to 
appear before you today. I look forward to answering your questions and 
working with you on the fiscal year 2020 budget request.

    Ms. Torres Small. Thank you for your testimony.
    I now recognize Mr. Currie to summarize his statements for 
5 minutes.

  STATEMENT OF CHRIS CURRIE, DIRECTOR, HOMELAND SECURITY AND 
         JUSTICE TEAM, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Currie. Well, thank you very much, Chairman Torres 
Small, Congressman Higgins, Congresswoman Titus, thank you. It 
is always an honor to appear before this committee. I am 
pleased to be here to talk about GAO's work on high-risk issues 
and DHS Management.
    So GAO placed DHS on the high-risk list in 2003 right when 
the Department opened its doors. The reason we did that was 
really two things. First of all, just the massive challenge of 
trying to combine 22 separate agencies. Some of those agencies 
had big management challenges in and of themselves even before 
that time, into one functioning department.
    The other reason is obviously that the impacts and the 
implications for National security were huge, too.
    So today, 16 years later, I am happy to report that there 
has been tremendous progress. I want to start out by just 
talking about the Department's leadership on this. At GAO we 
manage 30 high-risk areas across Government, from Defense 
programs to DHS to health care.
    There is not a Department that is more committed to 
addressing high-risk issues than DHS and part of that has to do 
with their leadership, including Mr. Fulghum. They have a very 
humble, committed approach to this rather than a defensive 
posture and that makes all the difference in the world.
    I also want to say that the committee's oversight of this 
is huge, too. What we see at GAO across our high-risk areas we 
monitor is that when there is strong Congressional oversight 
and legislation these areas tend to get fixed much quicker. So 
I think that is very important to say as well.
    So what I would like to do today is talk a little bit about 
the progress they have made in some areas and then just move on 
to some of the areas that are keeping them on the high-risk 
list.
    So we and DHS basically have agreed on 30 individual 
performance measures. These are the goal posts, if you will, on 
what it is going to take for DHS to get off the high-risk list. 
We meet twice a year and also quarterly to talk about the 
progress in these areas.
    So far DHS has addressed 17 of these 30 areas and they are 
on their way to addressing many more or have initiated all of 
them. We are down to some of the really challenging issues, 
though and that is what is keeping them on the high-risk list. 
So I want to talk about some of those.
    First is human capital management. Over the years DHS has 
made tremendous progress in bringing together a lot of its 
personnel and human capital systems. Some of those were legacy 
systems from agencies that existed or even didn't exist before 
DHS was formed, and has done a great job doing that.
    However, as you know, the committee knows, and legislation 
was introduced recently on this, morale continues to be a huge 
issue for DHS. I know it is a frustration of their management.
    There has been some uptick and some increases in the last 
couple years, but they still ranked last among large to very 
large agencies across the Government. So there absolutely needs 
to be continued focus and effort on that. It is not too big of 
a challenge to address. We just have to keep at it.
    The second piece is acquisitions. When the Department was 
formed what we saw was very little discipline and oversight 
mechanisms across the Department. The components of the 
Department were off acquiring their own goods, there was no 
integrated approach across the Department.
    Since that time that has been changed. There are 
disciplined processes. There are the directives and guidance 
and oversight mechanisms.
    What we need to see moving forward, though, is we need to 
see programs successfully undergo those processes and be held 
accountable. For example, we need to see cost estimation and 
schedule estimation improve at the Department still.
    When we last looked at the major acquisitions at DHS last 
year, over half of them were still over cost and over schedule. 
What happens is that creates a budget problem, a budget 
shortfall for DHS in future years.
    If they don't estimate correctly how much something is 
going to cost, then they don't know how much to ask for and 
then later on they don't have the money to cover it. So it is 
kind-of a vicious cycle.
    The last piece I will talk about is financial management, 
which Chip talked about a lot in his opening statement. I think 
it is amazing that DHS is able to get 6 straight clean audit 
opinions.
    That is a major accomplishment, especially considering a 
lot of the manual intervention that is still required because 
of the state of some of their financial management systems. I 
think it shows you how hard they are working to address their 
issues.
    But they are going to have to continue to modernize their 
financial management systems. Some of them, including FEMA's, 
are over 25 years old. They are going to have to work on 
getting a clean audit opinion, as he said, on internal 
controls.
    So that is all I wanted to talk about in my opening 
statement. I appreciate the discussion and any questions.
    [The prepared statement of Mr. Currie follows:]
                   Prepared Statement of Chris Currie
                             April 3, 2019
high risk.--important progress made, but more work needed to strengthen 
                             dhs management
                              gao-19-475t
    Madam Chairwoman Torres Small, Ranking Member Crenshaw, and Members 
of the subcommittee: I am pleased to be here today to discuss the 
Department of Homeland Security's (DHS) management challenges and its 
progress in addressing them. As you know, in 2002, when DHS was 
created, Department leadership faced the daunting task of transforming 
22 agencies--several with major management challenges--into one 
Department. At that time, we recognized that the creation of DHS was an 
enormous undertaking that could take years to implement, and failure to 
effectively address management challenges could have serious National 
security consequences. In 2003, shortly after the Department was 
formed, we designated Implementing and Transforming DHS as a high-risk 
area to the Federal Government. Today, the work to strengthen DHS's 
management continues.
    Since 2003, we have narrowed the focus of this high-risk area as 
DHS has matured and evolved. In 2013, we reported that although 
challenges remained for DHS across its range of missions, the 
Department had made considerable progress in transforming its original 
component agencies into a single Cabinet-level department. As a result, 
we narrowed the scope of the high-risk area to focus on strengthening 
DHS management functions (human capital, acquisition, financial 
management, and information technology) and changed the name of the 
high-risk area to Strengthening DHS Management Functions to reflect 
this focus.
    In the last decade, DHS has taken many steps to strengthen its 
management including developing a more strategic approach to human 
capital planning, improving acquisition process compliance, and 
improving its information technology (IT) investment framework. DHS has 
implemented more than 75 percent of the approximately 2,800 
recommendations we have made since 2003, which have strengthened 
program management and performance measurement, among other things. 
However, significant challenges remain in the areas of acquisition 
management and financial reporting. In May 2018, we found that many of 
the acquisition programs we assessed were not on track to meet their 
schedule and cost goals, as I will explain in greater detail later in 
this statement.\1\ Further, components' financial management systems 
and business processes need to be modernized to facilitate the 
Department's ability to have ready access to reliable information for 
informed decision making. We continue to closely monitor DHS's work in 
these areas and regularly meet with DHS management to discuss progress.
---------------------------------------------------------------------------
    \1\ GAO, Homeland Security Acquisitions: Leveraging Programs' 
Results Could Further DHS's Progress to Improve Portfolio Management, 
GAO-18-339SP (Washington, DC: May 17, 2018).
---------------------------------------------------------------------------
    Our five criteria for removing areas from the High-Risk List guide 
our discussions with DHS and our assessments of its progress. 
Specifically, the agency must have: (1) A demonstrated strong 
commitment and top leadership support to address the risks; (2) the 
capacity--the people and other resources--to resolve the risks; (3) a 
corrective action plan that identifies the root causes, identifies 
effective solutions, and provides for substantially completing 
corrective measures in the near term, including but not limited to 
steps necessary to implement solutions we recommended; (4) a program 
instituted to monitor and independently validate the effectiveness and 
sustainability of corrective measures; and (5) the ability to 
demonstrate progress in implementing corrective measures.
    My statement discusses DHS's progress and remaining actions needed 
to strengthen and integrate its management functions. This statement is 
based on our 2019 high-risk update and other reports we issued from 
February 2017 through March 2019.\2\ For these products we analyzed DHS 
strategies and other documents related to the Department's efforts to 
address its high-risk areas and interviewed DHS officials, among other 
things. More detailed information on the scope and methodology of our 
prior work can be found within each specific report. We conducted the 
work on which this statement is based in accordance with generally 
accepted Government auditing standards.
---------------------------------------------------------------------------
    \2\ GAO, High Risk Series: Substantial Efforts Needed to Achieve 
Greater Progress on High-Risk Area, GAO-19-157SP (Washington, DC: March 
6, 2019); High-Risk Series: Progress on Many High-Risk Areas, while 
Substantial Efforts Needed on Others, GAO-17-317 (Washington, DC: Feb. 
15, 2017); and Roundtable on Reauthorizing the Department of Homeland 
Security, Statement of George A. Scott, Managing Director, Homeland 
Security and Justice (Washington, DC: February 2018).
---------------------------------------------------------------------------
 dhs has made important progress in strengthening its management, but 
                       considerable work remains
DHS Has Met 3 of 5 Criteria for Removal from the High-Risk List
    DHS's efforts to strengthen and integrate its acquisition, IT, 
financial, and human capital management functions have resulted in the 
Department meeting 3 out of 5 criteria for removal from the High-Risk 
List--leadership commitment, action planning, and monitoring progress. 
DHS has partially met the remaining two criteria--capacity and 
demonstrated sustained progress, as shown in figure 1.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    With regard to leadership commitment, DHS's top leadership, 
including the Secretary and deputy secretary of Homeland Security, has 
continued to demonstrate commitment and support for addressing the 
Department's management challenges. They have also taken actions to 
institutionalize this commitment to help ensure the long-term success 
of the Department's efforts. One such effort is the under secretary for 
management's Integrated Priorities initiative to strengthen the 
integration of DHS's business operations across the Department. During 
monthly leadership meetings with the under secretary for management, 
the Department's chief executive officers have been providing status 
updates on their respective actions to address this high-risk 
designation. Furthermore, top DHS leaders, such as the under secretary 
for management and the Department's chief executive officers, routinely 
meet with GAO management to discuss progress on high-risk areas.
    With regard to having an action plan and monitoring effectiveness, 
in January 2011, DHS produced its first Integrated Strategy for High-
Risk Management and has issued 14 updated versions, most recently in 
September 2018. The September 2018 strategy describes DHS's progress to 
date, planned corrective actions to further strengthen its management 
functions, and includes performance measures to monitor key management 
initiatives. DHS's Management Directorate leads this on-going effort 
and DHS's strategy and approach, if effectively implemented and 
sustained, provides a path for DHS to be removed from our High-Risk 
List.
    DHS has partially met the criteria for capacity but needs to make 
additional progress identifying and allocating resources in certain 
areas--namely acquisition, IT, and financial management--to fully 
demonstrate its capacity. DHS has analyzed components' acquisition 
program staffing assessments but has yet to conduct an in-depth 
analysis across components or develop a plan to address any gaps. With 
regard to IT staffing, DHS has not fully identified or reported to 
Congress or the Office of Personnel Management (OPM) on its Department-
wide cybersecurity specialty areas of critical needs, such as 
cybersecurity management or incident response, as required by law.\3\ 
Additionally, DHS's financial statement auditor has identified several 
capacity-related issues, including resource limitations and inadequate 
management and staff training, as causes for the material weaknesses 
reported.
---------------------------------------------------------------------------
    \3\ In February 2018, we recommended that DHS take steps to ensure 
that: (1) Its cybersecurity workforce procedures identify position 
vacancies and responsibilities, (2) cybersecurity workforce data are 
complete and accurate, and (3) plans for reporting critical needs are 
developed. DHS concurred and stated it planned to provide further 
evidence addressing the recommendations. GAO, Cybersecurity Workforce: 
Urgent Need for DHS to Take Actions to Identify Its Position and 
Critical Skill Requirements, GAO-18-175 (Washington, DC: February 6, 
2018).
---------------------------------------------------------------------------
    The final criterion is demonstrated progress, which remains 
partially met. In 2010, we identified, and DHS agreed, that achieving 
30 specific outcomes in the areas of acquisition management, IT 
management, financial management, human capital management, and 
management integration would be critical to addressing the Department's 
management challenges. As such, these 30 outcomes became the key 
criteria by which we gauge DHS's demonstrated progress.
    We reported in March 2019 that DHS has fully addressed 17 of the 30 
needed outcomes, mostly addressed 4, partially addressed 6, and 
initiated actions to address the remaining 3, as shown in table 1.

 TABLE 1.--GAO ASSESSMENT OF DEPARTMENT OF HOMELAND SECURITY (DHS) PROGRESS ACROSS MANAGEMENT AREAS, AS OF GAO'S
                                           MARCH 2019 HIGH-RISK REPORT
----------------------------------------------------------------------------------------------------------------
                                                                                 Partially
                                                             Fully      Mostly              Initiated
                 Key Management Function                   addressed  addressed  addressed     ****      Total
                                                               *          **        ***
----------------------------------------------------------------------------------------------------------------
Acquisition management...................................          2          2          1  .........          5
Information technology management........................          5          1  .........  .........          6
Financial management.....................................          2  .........          3          3          8
Human capital management.................................          5          1          1  .........          7
Management integration...................................          3  .........          1  .........          4
      Total..............................................         17          4          6          3         30
----------------------------------------------------------------------------------------------------------------
Source: GAO analysis of DHS documents, interviews, and prior GAO reports./GAO-19-475T
* ``Fully addressed'': Outcome is fully addressed.
** ``Mostly addressed'': Progress is significant and a small amount of work remains.
*** ``Partially addressed'': Progress is measurable, but significant work remains.
**** ``Initiated'': Activities have been initiated to address the outcome, but it is too early to report
  progress.

    In the last 2 years, DHS has made particular progress in the areas 
of human capital and IT management. Specifically, since 2017 DHS has 
taken steps to fully address 4 outcomes. The Department fully addressed 
two key human capital outcomes by: (1) Demonstrating that components 
are basing hiring decisions and promotions on human capital 
competencies and (2) strengthening employee engagement efforts. In 
addition, in the last 2 years DHS has fully addressed two IT outcomes 
by: (1) Providing on-going oversight and support to troubled IT 
investments to help improve their cost, schedule, and performance; and 
(2) demonstrating significant progress in implementing its IT strategic 
workforce planning initiative.
    Important progress and remaining work in all of the five key areas 
include:
  <bullet> Acquisition management.--DHS continues to face challenges in 
        funding its acquisition portfolio. In May 2018, we found that 
        recent enhancements to DHS's acquisition management, resource 
        allocation, and requirements policies largely reflect key 
        portfolio management practices.\4\ However, we also found that 
        of the 24 major acquisition programs we assessed with approved 
        schedule and cost goals, 10 were on track to meet those goals 
        during 2017--a decrease from 2016.
---------------------------------------------------------------------------
    \4\ GAO-18-339SP.
---------------------------------------------------------------------------
    In addition, we found that DHS's portfolio of major acquisition 
        programs was not affordable from fiscal years 2018 to 2022 
        because the planned costs exceeded the planned budget. DHS has 
        taken steps to strengthen acquisition requirements development 
        across the Department, such as reestablishing the Joint 
        Requirements Council in June 2014 to review and validate DHS 
        acquisition requirements. However, opportunities remain to 
        further strengthen DHS's acquisition process by, for example, 
        using the Joint Requirements Council to: (1) Identify 
        overlapping or common requirements and (2) make recommendations 
        to senior leadership to help ensure that DHS uses its finite 
        investment resources wisely and maintains a balanced portfolio 
        of investments that combine near-term operational improvements 
        with long-term strategic planning.
        
        [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
        
  <bullet> IT management.--DHS has updated its approach for managing 
        its portfolios of IT investments across all components. As part 
        of the revised approach, the Department is using its capital 
        planning and investment control process and the Joint 
        Requirements Council to assess IT investments across the 
        Department on an on-going basis. For example, as part of its 
        capital planning process for the fiscal year 2020 budget, the 
        Office of the Chief Information Officer worked with the 
        components to assess each major IT investment to ensure 
        alignment with DHS's functional portfolios, and to identify 
        opportunities to share capabilities across components. This 
        updated approach should enable DHS to identify potentially 
        duplicative investments and opportunities for consolidating 
        investments, as well as reduce component-specific investments.
    Additionally, DHS has continued to take steps to enhance its 
        information security program. In November 2018, the 
        Department's financial statement auditor reported that DHS had 
        made progress in correcting its prior year IT security 
        weaknesses. However, for the 15th consecutive year, the auditor 
        designated deficiencies in IT systems controls as a material 
        weakness for financial reporting purposes. Work also remains in 
        implementing our 6 open recommendations concerning DHS's 
        cybersecurity workforce assessment requirements.\5\
---------------------------------------------------------------------------
    \5\ GAO, Cybersecurity Workforce: Urgent Need for DHS to Take 
Actions to Identify Its Position and Critical Skill Requirements, GAO-
18-175 (Washington, DC: February 6, 2018).
---------------------------------------------------------------------------
    DHS also faces challenges in fulfilling its pivotal role in 
        Government-wide cybersecurity efforts, as identified in our 
        Ensuring the Cybersecurity of the Nation high-risk area. DHS 
        has established the National Cybersecurity and Communications 
        Integration Center, which functions as the 24/7 cyber 
        monitoring, incident response, and management center for the 
        Federal civilian government. However, DHS has continued to be 
        challenged in measuring how the center is performing its 
        functions in accordance with mandated implementing principles.
  <bullet> Financial management.--DHS received a clean audit opinion on 
        its financial statements for 6 consecutive years--fiscal years 
        2013 to 2018. However, in fiscal year 2018, its auditor 
        reported two material weaknesses in the areas of financial 
        reporting and information technology controls and financial 
        systems, as well as instances of non-compliance with laws and 
        regulations. These deficiencies hamper DHS's ability to provide 
        reasonable assurance that its financial reporting is reliable 
        and the Department is in compliance with applicable laws and 
        regulations.
    Further, DHS components' financial management systems and business 
        processes need to be modernized; the current systems affect the 
        Department's ability to have ready access to reliable 
        information for informed decision making. As we reported in 
        2017, DHS officials have faced various challenges in their 
        efforts to address this--lack of sufficient resources, 
        aggressive schedule, complex requirements, and increased costs. 
        Effectively modernizing financial management systems for the 
        Coast Guard, Federal Emergency Management Agency, and 
        Immigration and Customs Enforcement would help address DHS's 
        risk in this area.
  <bullet> Human capital management.--DHS has continued to strengthen 
        its employee engagement efforts by implementing our 2012 
        recommendation to establish metrics of success within 
        components' action plans for addressing its employee 
        satisfaction problems.\6\
---------------------------------------------------------------------------
    \6\ GAO, Department of Homeland Security: Taking Further Action to 
Better Determine Causes of Morale Problems Would Assist in Targeting 
Action Plans, GAO-12-940 (Washington, DC. Published: Sept. 28, 2012. 
Publicly Released: October 31, 2012).
---------------------------------------------------------------------------
    Further, DHS has conducted audits to better ensure components are 
        basing hiring decisions and promotions on human capital 
        competencies. OPM's 2018 Federal Employee Viewpoint Survey data 
        showed that in the past 2 years, DHS's score on the Employee 
        Engagement Index increased by 4 points--from 56 in 2016 to 60 
        in 2018--which was 1 point more than the Government-wide 
        increase over the same period. While this improvement is 
        notable, DHS's 2018 score ranked 20th among 20 large and very 
        large Federal agencies. Increasing employee engagement and 
        morale is critical to strengthening DHS's mission and 
        management functions.
  <bullet> Management integration.--Since 2015, DHS has focused its 
        efforts to address crosscutting management challenges through 
        the establishment and monitoring of its Integrated Priorities 
        initiative. The Department updated these priorities in 
        September 2017. Each priority includes goals, objectives, and 
        measurable action plans that are discussed at monthly 
        leadership meetings led by senior DHS officials, including the 
        under secretary for management. DHS needs to continue to 
        demonstrate sustainable progress integrating its management 
        functions within and across the Department.
What Remains to be Done
    In closing, it is clear that significant effort is required to 
build and integrate a Department as large and complex as DHS, which has 
grown to more than 240,000 employees and approximately $74 billion in 
budget authority. Continued progress for this high-risk area depends 
primarily on addressing the remaining outcomes. In the coming years, 
DHS needs to continue implementing its Integrated Strategy for High-
Risk Management to show measurable, sustainable progress in 
implementing corrective actions and achieving outcomes. In doing so, it 
remains important for DHS to:
  <bullet> maintain its current level of top leadership support and 
        sustained commitment to ensure continued progress in executing 
        its corrective actions through completion;
  <bullet> continue to identify the people and resources necessary to 
        make progress toward achieving outcomes, work to mitigate 
        shortfalls and prioritize initiatives as needed, and 
        communicate to senior leadership critical resource gaps;
  <bullet> continue to implement its plan for addressing this high-risk 
        area and periodically provide assessments of its progress to us 
        and Congress;
  <bullet> closely track and independently validate the effectiveness 
        and sustainability of its corrective actions, and make mid-
        course adjustments as needed; and
  <bullet> make continued progress in achieving the 13 outcomes it has 
        not fully addressed and demonstrate that systems, personnel, 
        and policies are in place to ensure that progress can be 
        sustained over time.
    We will continue to monitor DHS's efforts in this high-risk area to 
determine if the outcomes are achieved and sustained over the long 
term.
    Madam Chairwoman Torres Small, Ranking Member Crenshaw, and Members 
of the subcommittee, this completes my prepared statement. I would be 
happy to respond to any questions you may have at this time.

    Ms. Torres Small. I thank all the witnesses for their 
testimony.
    I will remind each Member that he or she will have 5 
minutes to question the panel. I will now recognize myself for 
questions.
    Secretaries prior to Secretary Nielsen had visions for 
integrating and unifying the Department, which I think is 
critical because of the challenges that were referenced by the 
panel.
    For example, Secretary Napolitano coined One DHS. Secretary 
Johnson developed the Unity of Effort initiative. It is unclear 
what Secretary Nielsen's vision for the Department is and 
whether the resources are being adequately allocated to enhance 
integration and unification.
    So Mr. Fulghum, what has Secretary Nielsen conveyed to you 
as her vision for integrating and unifying the Department? How 
is this vision being implemented through the Management 
Directorate's budget request?
    Mr. Fulghum. So I would start by saying the Secretary has 
been very clear to us that the Unity of Effort initiatives 
started under the previous administration has continued, which 
really means strong centralized leadership and direction.
    The processes that were put in place in 2014, 2015, and 
2016 have continued. We have a strong executive corporate 
structure with the Deputies' Management Action Group that looks 
at all resourcing decisions as we go through the programming 
and budget process. We have a strong acquisition review board 
that has continued.
    We stood up and maintain a Joint Requirements Council to 
make sure, to Chris' point, that we get investments right up 
front. So there is strong governance, first and foremost, 
within the Management Directorate.
    We continue to push strong CXO integration and in a variety 
of different ways we have demonstrated that and continue to 
demonstrate that. That is foundational to what we are doing as 
a Department.
    We have got to make sure that while we talk very good this 
way, we have got to make sure that we continue to talk across 
the lines of business and work together.
    Ms. Torres Small. Thank you. I would just emphasize that 
reflecting that in budget requests is important and then 
delivering on those goals.
    Mr. Currie, I deeply appreciated your clear-eyed assessment 
and acknowledgement of the tremendous progress that has 
occurred. So DHS Management continues to be on GAO's high-risk 
list since 2003. That has proven helpful in holding Department 
leadership accountable for improvement.
    Mr. Currie, what could Congress do to continue supporting 
the needed change at DHS and holding the Department accountable 
for its results?
    Mr. Currie. I think you said in your opening statement, I 
mean, DHS Management is not a headline-grabbing issue, but it 
is really critical what we are talking about is bringing the 
Department together and making it function well. It is not just 
management. This translates down to the mission side.
    So I think, you know, hearings like this, Congressional 
oversight where this issue is called out, continuing to focus 
on their high-risk areas, and also codifying a lot of the 
progress that has been made or the things that haven't been 
done yet in legislation. That is huge as well.
    Ms. Torres Small. A lot of money has been spent trying to 
modernize outdated financial systems and we are not seeing the 
results yet. For example, DHS has spent $52 million trying to 
buy one single system for the Department before then abandoning 
that concept.
    Since 2012, DHS has been focused on modernizing financial 
management systems for three components, Countering Weapons of 
Mass Destruction's office, the Transportation Security 
Administration, and the U.S. Coast Guard. We have had limited 
success there.
    The Department is now requesting $120 million for financial 
modernization in fiscal year 2020.
    Mr. Fulghum, what is your time line for finalizing the 
system for modernization for CWMD, TSA, and the Coast Guard?
    Mr. Fulghum. So CWMD is up and operational. It has been 
operational since 2016, I believe. As for TSA and the Coast 
Guard, our original schedule was to have TSA up and running at 
the end of 2019 and the Coast Guard up in 2020.
    Given the shutdown and the impacts of the shutdown, that is 
forced a, in all likelihood, a one-quarter slip in delivering 
that full functionality.
    So what that means very quickly, ma'am, is is that we would 
be forced to migrate TSA in the middle of the fiscal year with 
thousands of open transactions. That creates too much audit 
risk, so we will delay the migration another 6 months. Should 
be a big cost impact, and the Coast Guard will still come up in 
2020.
    Ms. Torres Small. Mr. Currie, very quickly, yes or no, do 
you believe the DHS is well-positioned to spend $120 million on 
FSM?
    Mr. Currie. The quick answer is we don't know. We haven't 
assessed the $120 million request and I don't know exactly what 
portion of financial management modernization that is going to 
address.
    But we do know this--that some, like, FEMA and ICE 
specifically are still not there or rather they are still in 
the discovery phase, which is in financial management terms 
means that they are still trying to see how long it is going to 
take to address these issues and what it is going to cost.
    Ms. Torres Small. Thank you. Thank you, Mr. Currie. I 
apologize. My time is up.
    I am glad that we are now joined by Ranking Member 
Crenshaw. So I will now recognize the Ranking Member of the 
subcommittee, the gentleman from Texas, Mr. Crenshaw for an 
opening statement.
    Mr. Crenshaw. Thank you, Chairwoman. Apologies. We are 
double-booked in hearings today and budget markups. So I 
appreciate you-all's patience. Thank you for holding this 
hearing and thank you to my colleagues for being here to 
address this extremely important matter.
    Thank you to our witnesses, as well, for being here. I 
especially want to thank Mr. Fulghum for his years of service 
with DHS and for your decades of uniformed service as an Air 
Force officer.
    I and the Nation are grateful for people like you who place 
service to country above self, and I wish you both luck in your 
future endeavors.
    This Department was created from agencies and components of 
numerous other agencies with varied mission sets. At times this 
has made it very difficult for DHS to work as a unified body. 
Each agency and component still has its own requirements and 
missions, but also must find a way to ensure the overall 
mission of the Department is fulfilled.
    So today we are examining how DHS has been fulfilling its 
mission and the struggles it has encountered as it moves toward 
a unified management structure.
    Many large agencies have difficulties in managing 
acquisitions and personnel. DHS is no exception, of course. 
Since its creation DHS has had difficulty with developing and 
following policies to prevent cost overruns and ensure that 
requirements are met.
    Now, DHS has been taking steps to identify efficiencies and 
reduce duplication by looking for common requirements among the 
components. It has also developed specific steps that must be 
followed in each major acquisition. The problem seems to be 
oversight of these policies to ensure that appropriate action 
is taken when a problem is identified.
    So while we examine the steps DHS has taken, we should also 
take this opportunity to find out what we can do in Congress 
and in this committee to assist DHS in the problems it has been 
encountering with personnel, procurement, and acquisitions and 
other issues necessary for DHS to accomplish its mission.
    Personnel management in DHS has presented its own unique 
challenges. DHS consistently ranks at the bottom in terms of 
employee morale. According to one Federal employee viewpoint 
survey DHS has typically had declining rates of satisfaction. 
However, in 2017 it increased by 4 percent, but remained level 
in 2018.
    The most recent survey shows that while 89 percent of 
employees feel their work is important, as they should, only 48 
percent feel that poor performance is actually dealt with 
appropriately and only 43 percent felt that senior leaders 
generate high levels of motivation.
    The DHS must figure out ways to motivate its employees. 
Just as or more importantly, must be freer to hire and fire its 
employees in order to improve the quality of people within the 
Department. The management of the Department and the management 
of each component need to make it a priority to improve morale 
and treat employees fairly while also at the same time holding 
substandard performers accountable.
    DHS also faces challenges with hiring enough people. This 
is seen most clearly in CBP which struggled to hire and retain 
enough personnel. Congressional fixes like my Anti-Border 
Corruption Improvement Act and Representative Torres Small's 
Rural and Remote Hiring Bill are good starts to address some of 
these challenges.
    For the last several years, DHS and GSA have been 
developing the land at St. Elizabeths to create a consolidated 
headquarters for the Department. The Secretary and the 
management of the Department are moving into this location this 
week.
    However, there are still a number of questions about the 
direction of this project in the future. At a hearing last 
April, the Department committed to providing an updated plan 
for the future of St. Elizabeths by the end of 2018. This 
updated plan has not yet been provided, yet the budget includes 
a request for additional funds for this project.
    Since this project has been plagued with delays and cost 
overruns it makes sense for the Department to have a solid plan 
before moving forward.
    DHS still struggles with management of its financial 
systems, which has been an on-going problem. The 
administration's budget includes a request to modernize the 
systems for certain components of the Department. I look 
forward to hearing how this project is developing.
    I recognize the unique challenges this Department has had 
to struggle with since its inception, and I commend the 
management for all the progress that has been made toward 
achieving a unified Department of Homeland Security. We must 
continue to improve and as we say in the military, always work 
to improve our forward position.
    What this all comes down to is efficiency, efficiency in 
operations and efficiency in management. While we discuss this 
we should not lose sight of the fact that what is happening at 
the border is the opposite of efficient.
    That may be tough for many to hear, but it is also this is 
what happens with the full strength of the Department of 
Homeland Security is not adequate and it cannot do its job.
    I look forward to hearing from our witnesses today and how 
to address the challenges that remain.
    I yield back. Thank you, Chairwoman.
    Ms. Torres Small. OK. Thank you.
    I now recognize the gentlewoman from Nevada, Ms. Titus.
    Ms. Titus. Thank you very much, and thank you all for being 
here.
    I want to ask you about St. Elizabeths. But before I get to 
that, let me ask you this. Is there any money anywhere in this 
budget that the President can steal and use to build a wall?
    Mr. Fulghum. We have the budget request for the wall inside 
our overall budget and for $5 billion.
    Ms. Titus. So they can't move any of this around?
    Mr. Fulghum. Well, what we have is general transfer 
authorities provided by the Congress where we can move 5 
percent out and 10 percent in, subject to Congressional 
notification.
    Ms. Titus. OK. Do you all anticipate that will happen?
    Mr. Fulghum. I haven't been asked to do any of that, ma'am.
    Ms. Titus. OK, thank you. Well, back to St. Elizabeths. I, 
in addition to the honor of serving on this committee, I chair 
the Subcommittee of Infrastructure and Transportation that 
oversees GSA and public buildings. So the problems at St. 
Elizabeths are very concerning to me.
    They have already been outlined, but just to put them in 
perspective, it is about 10 years overdue and about $1 billion 
overrun of cost.
    I am glad to hear that the Secretary is moving in there 
this week because we have been hearing rumors that she wasn't 
going to move in there until August.
    Also some of the agencies that were originally intended to 
move there are now not going to fit. There is not going to be 
enough room for them to go and some of the agencies that are 
now overdue to move are having to engage in some very expensive 
short-term leases.
    I would ask you if you could address that because we 
haven't gotten the report that was due to us 2 years ago, and I 
don't know if there is any plan to give us that report. But I 
would ask you how you deal with those leases, how expensive 
they are because they are short-term?
    What about the folks who aren't going to get to move to 
this campus? Are they going to be nearby? How are you going to 
coordinate with them since coordination seems to be the biggest 
problem?
    Is there any environmental-friendly LEED project 
sustainability requirements going into any of this 
construction?
    Mr. Fulghum. OK, first and foremost, ma'am, as you said, we 
are moving into the center building. DHS's portion of that 
budget has been on budget. The plan moving forward is the 2020 
budget request does ask for $224 million to outfit a state-of-
the-art cybersecurity facility.
    Given there are such unique both I.T. requirements, as well 
as security requirements, along with the fact that they are in 
over 8 locations and this will allow them to consolidate, makes 
a lot of sense to put them in Federal space on the campus. That 
will be next, followed in all likelihood by our intelligence 
function which is now sitting at the Nebraska Avenue complex.
    We hope to ask for funding for that in the fiscal year 2021 
request. That will allow us to get off of the Nebraska Avenue 
complex and save money there and turn that back over to the 
GSA.
    As far as the report goes, you are 100 percent correct. It 
is way overdue. We had a report that was ready but because of a 
couple of budget requests that didn't go through and the fact 
that we had a new administration and we thought requirements 
may change, we didn't deliver it.
    What I will tell you is is we have been keeping the 
committee updated, their staffs updated all along the way. We 
will continue to do that. We have an NCR consolidation study 
that should complete by June.
    That one form, that strategy along with GSA's master plan, 
which is currently in the NEPA process, I believe that we 
should be able to give you a good preliminary assessment of 
what we are going to do, not only on St. Elizabeths, but in the 
NCR in the July-August time frame.
    Ms. Titus. That will give us some comparisons of what it 
costs to lease as well as to build and move?
    Mr. Fulghum. That is what the report requires, yes, ma'am.
    Ms. Titus. How about the environmental qualities of the 
building?
    Mr. Fulghum. The center building?
    Ms. Titus. The one, yes, that is under construction.
    Mr. Fulghum. To my knowledge there are no issues with that 
building environment from an environmental perspective.
    Ms. Titus. Do you think it is going to be finished by 2026?
    Mr. Fulghum. Well, the entire campus?
    Ms. Titus. Yes.
    Mr. Fulghum. So the remainder of the campus what we are 
looking to do is build three more buildings out there. That is 
what we have got an agreement to do. We don't want any more 
adaptive reuse because, as you said, it costs too much and we 
lost too much square footage.
    Depending on the support of the Congress I believe that we 
can, if we ask for the budget for I&A in 2021 we would have 
that by 2024. The final facility out there in the 2022 budget 
request and it would be built by 2025 and 2026. That would 
complete what we are able to do on that campus today.
    Short of getting folks to agree to demolish some more 
facilities out there and things of that nature, which takes 
quite a bit of time, as you well know, ma'am.
    Ms. Titus. Thank you, Madam Chairwoman.
    Ms. Torres Small. Thank you.
    The Chair recognizes for 5 minutes the gentleman from 
Louisiana, Mr. Higgins.
    Mr. Higgins. Thank you, Madam Chairwoman.
    Gentlemen, thank you for your service to your country. It 
is quite an endeavor, the Department of Homeland Security being 
formed with the intent to gather the full services of so many 
agencies that have been existing sometimes with very disparate 
cultures and backgrounds. To integrate that is a tremendous 
task.
    Mr. Currie, you mentioned in your opening statement that a 
great deal of progress has been made over the course of 16 
years. I support my colleagues who have mentioned that the 
centralized command and control of DHS where this is an 
endeavor I believe should be bipartisan and your own struggles 
and efforts, both you gentlemen are noted.
    Mr. Fulghum, regarding appropriations, last month this 
committee marked up a bill, H.R. 1639. It was my bill that 
would require Customs and Border Protection commissioner to 
coordinate with your office to prepare, implement, and submit 
to Congress workload staffing models, staffing and 
appropriations therein are challenges.
    The staffing models for Air and Marine Operations and 
Border Patrol that will inform Customs and Border Protection's 
review and communication of staffing shortages to Congress.
    This bill would help Congress review CBP staffing needs so 
we can ensure to properly fund it to fill these important law 
enforcement vacancies and ensure that CBP has taken a 
scientific approach to assessing its resourcing needs.
    I ask you, sir, are you familiar with that bill? That can 
be a yes or no. Could you talk about some of the factors that 
go into workload staffing modeling? How can it help CBP assess 
its staffing needs if it had this mandated requirement?
    Mr. Fulghum. I am familiar with the legislation. For CBP, 
as you stated, staffing models are extremely important. For 
CBPOs we have a staffing model. It is pretty straightforward 
because of the type of work they do. For a Border Patrol agent, 
it is vastly different. It is much more complex in terms of 
response times.
    Mr. Higgins. I don't mean to interrupt, but on that point, 
is it a moving target? My brother just----
    Mr. Fulghum. So----
    Mr. Higgins. Because what is happening on our Southern 
Border it is quite challenging to model and predict staffing 
requirements, is it not? I mean, who knew 6 months ago that we 
would have 76,103 interceptions in February and over 100,000 in 
March?
    Mr. Fulghum. So what I would say is the amount of staff 
required is a moving target, but the model itself can be done.
    Mr. Higgins. Exactly.
    Mr. Fulghum. I have been briefed on the model. The model 
shows tremendous promise. I believe by the June-July time frame 
that model will be, at least Phase I will be operational in 
what I would call IOC. It will go a long way to helping the 
Border Patrol determine exactly what it needs to 
operationalize, or operationally control the border.
    Mr. Higgins. Overall do you concur that the scientific 
staffing modeling, like we describe in my legislation will call 
for this subcommittee's support?
    Madam Chairwoman was, spoke on behalf, and I thank her for 
that and as well as the Ranking Member.
    Would you concur it would just help Congress get its head 
wrapped around the reality of what staffing is needed and 
therefore would fund it as needed for that staffing?
    Mr. Fulghum. For Border Patrol agents absolutely, as well 
as the rest of the Department. If I could very quickly, I would 
tell you that the Department has for about 65 percent of the 
work force a good staffing model.
    Once we get one for Border Patrol agents we would be up 
around 80 percent which is----
    Mr. Higgins. Roger that. Quickly in my remaining time, I 
want to jump to biometrics. Listen, I support the full 
implementation of biometrics. I think it is crucial for the 
security of our Nation.
    Just in your opinion would authorizing the DHS Office of 
Biometric Identity Management help improve biometric vetting 
and mitigate visa overstays to help us track that?
    Mr. Fulghum. I think what the authorization would do is 
give us clear authority not just for the long portion or aspect 
of identity management services, but for the broader 
implications that we would like to see in the Department. So 
yes.
    Mr. Higgins. Thank you for your clarification.
    Thank you, Madam Chairwoman.
    Mr. Currie, I will have a question to submit to you in 
writing, so I thank you for being here today.
    I yield.
    Ms. Torres Small. The Chair recognizes for 5 minutes the 
Ranking Member, the gentleman Crenshaw from Texas.
    Mr. Crenshaw. Thank you, Madam Chairwoman.
    Thank you again both for being here. I would like to start 
off with morale and the personnel issues.
    Mr. Currie, in your testimony you mentioned how critical it 
is for DHS to increase employee engagement and morale. Can you 
point to any measurable approaches to how that might be done?
    Mr. Currie. Yes. Yes, sir. That is a great question. We 
have been looking at this for years and I know DHS has as well. 
So we did a report a few years ago and one of our 
recommendations is, is that the DHS look across its components 
and try to identify the root causes of the morale problem.
    I have to say that it is important to look within the 
components. Some of these components like TSA and CBP are 
massive in and of themselves. They would be their own 
Department if compared to other Departments in size.
    So I think you have to look at the component itself, its 
mission and what drives employee engagement and the specific 
challenges within the component.
    They have done that. One of the things that has been found 
in some of this root cause analysis is actually that a lot of 
this it boils back down to what you said in your opening 
statement.
    It is about supervision, leadership, trust in leadership, 
training and development, and do supervisors have the 
employees' backs in an environment of trust? That is huge.
    So I think there needs to be continued oversight looking 
and drilling really down into some of the problem components, 
TSA, CBP, Secret Service, because they are very different and 
they all have their own unique challenges.
    Mr. Crenshaw. Mr. Fulghum, I will let you expand on that if 
you would like, but I want to bring up accountability--I didn't 
hear it. You know, I heard a lot of leadership issues which is 
certainly always the case, but accountability is a big one.
    When 48 percent of employees feel that poor performance, or 
sorry, 48 percent mean that it is believed that poor 
performance is dealt with appropriately, which means 52 percent 
believe that it is not.
    You know, how do we deal with that? Can we look at ways to 
increase the ability of supervisors to fire those with cause 
who deserve to be, who are underperforming?
    Mr. Fulghum. If I could, sir, I will start with employee 
engagement. To Chris' point, what we have done in the 
Department is required focused employee engagement action plans 
that target specific issues within the components.
    Then we have an ESA that the under secretary for management 
chairs that monthly looks at how they are making progress on 
those plans and continue to hold them accountable because to 
Chris' point, what is happening in TSA may be vastly different 
than what is happening in CBP.
    I think you also have to, once you get to that root cause, 
which may be retention or it may be a hiring issue in one 
component versus something else in another, build a plan and 
hold them accountable for it.
    To your point, it is we have done a lot to look at the 
issue of performance and why the survey says what it does. Part 
of the issue, frankly, it is between the employee and the 
supervisor when it comes to performance and discipline and 
those actions.
    Mr. Crenshaw. Well, to an extent, but I mean, I have worked 
in Federal Government. You can't just fire somebody.
    Mr. Fulghum. Right.
    Mr. Crenshaw. It is not like the private sector.
    Mr. Fulghum. I understand that.
    Mr. Crenshaw. So there is a lengthy bureaucratic process. 
Is there ways to quicken that process? What can we do to help 
with that? I know we have taken steps in Congress to make the 
Veterans Affairs organization, for instance, better-suited to 
hire and fire people quickly.
    Mr. Fulghum. I do think you still want to give due process, 
but I do think there are ways to streamline the process, to 
streamline the discipline process.
    My point only was, sir, that those discussions are between 
the supervisor and the employee so you don't have a lot of 
visibility as to what actions are being taken with disciplinary 
actions. That was my only point.
    Mr. Crenshaw. Yes.
    Mr. Fulghum. Yes, I think more could be done to streamline 
that discipline process.
    Mr. Crenshaw. Well, absolutely. I mean, again, I have 
worked in Federal Government. There is nothing that decreases 
morale more than feeling like people you work with are 
underperforming and cannot be held accountable for it because 
the system just doesn't let them be held accountable. That is a 
major problem in all Federal agencies, not just yours.
    Did you see, Mr. Currie, or do you see any benefit and this 
is we are moving to finance now. Is there any benefit from 
moving to a single consolidated finance system for pay and 
benefits similar to how the DOD uses DFAS? Would that work?
    Mr. Currie. Yes, I think this issue is endemic of a lot of 
the challenges the Department has had. I mean, they are 
combining agencies that are so different and have different 
needs, and every time they tried to do that in the past to have 
a DHS-wide system it is a huge challenge.
    I think even their contractors, you know, face challenges 
in trying to integrate all these systems to serve every 
component and give it what it needs. So, you know, I think 
there is some benefit in consolidating some functions, but it 
is also a major challenge. So it can't be----
    Mr. Crenshaw. I would like you both to----
    Mr. Currie. I don't think it can all be----
    Mr. Crenshaw [continuing]. Talk about this in my remaining 
seconds and then you can answer it, but also about how the 
Procurements Innovation Lab is going. Any good measurable 
benefits from that?
    Thank you, Madam Chair. See what I did there?
    Ms. Torres Small. Yes.
    [Laughter.]
    Ms. Torres Small. Thank you.
    Mr. Fulghum. Ma'am, can I respond?
    Ms. Torres Small. I will follow up afterwards on that. 
Thank you.
    The Chair recognizes for 5 minutes the gentleman from 
Texas, Mr. Taylor.
    Mr. Taylor. Thank you, Madam Chair. I will just a yield a 
minute to Congressman Crenshaw to follow up on his question.
    Mr. Fulghum. So first of all on financial systems 
modernization, what the Department is doing is exactly what DOD 
did. I was there when they did it.
    First you have to reduce your footprint, which is what we 
are doing through system consolidation and then you can 
continue to further consolidate.
    As it relates to the Procurement Innovation Lab, absolutely 
100 percent we are making real progress. I can give you one 
quick example. We had a large procurement. It typically takes 
us about 180 days to do.
    We were able to deliver capability in half that time, just 
by using the rules of the FAR, not by asking you for 
legislation, not by doing something out of the ordinary, but 
just using what is in the FAR and looking under every rock to 
see how we could do it differently. It is 100 percent 
absolutely working and it is becoming a best practice in the 
Federal Government.
    Mr. Taylor. Thank you. So just to follow up with that, so 
the innovation lab and that acquisition, so that is just 
acquiring existing off-the-shelf technology or is that trying 
to develop new technology that is specific to DHS's missions?
    Mr. Fulghum. So it could be either/or, sir. So it could be 
that we are looking to develop something new or it could be 
looking to develop something off the shelf, depending on what 
our alternatives analysis tells us.
    Mr. Taylor. Then can you speak a little bit more, I know 
Congressman Crenshaw asked you about the financial system and 
you spoke a little bit earlier, but could you just take me more 
through? I mean, it looks like you are asking for $120 million 
to modernize your financial systems.
    Then can you speak to, you know, what you are doing, what 
that will look like? Then I know it has had some problems. Can 
you speak to how you are going to avoid those?
    Mr. Fulghum. So I will start with what we would like to do 
with the $120 million. The $120 million will finish the 
consolidation of Coast Guard, CWMD, and TSA as well as begin 
the effort to modernize FEMA's systems that Chris referenced 
earlier. So that is what the money will do in that regard.
    As far as what lessons we have learned and what we have 
done about it, what we saw in the IBC experience was simply 
there were too many folks between us and the folks actually 
doing the work. So we had requirements but we had to go through 
IBC, who then went through their integrator contractor, who 
then went to the software provider.
    We now have very clear lines of communication, strong 
oversight, and governance. I meet with those folks once a week 
myself. They brief me on where this program is and how it is 
going. I meet with all stakeholders, which includes our 
integrator as well as the software provider monthly to make 
sure that they----
    Mr. Taylor. Is your----
    Mr. Fulghum. We are all staying on the same page.
    Mr. Taylor. Who are some of these contractors?
    Mr. Fulghum. I am sorry?
    Mr. Taylor. Who has some of these contracts? Can you give 
me an idea of the companies that are involved?
    Mr. Fulghum. So our integrator is IBM and the software 
provider is Oracle.
    Mr. Taylor. Keep going. I was----
    Mr. Fulghum. That is it.
    Mr. Taylor. All right.
    Madam Chair, I yield back.
    Ms. Torres Small. Thank you.
    We will do a second round if folks are interested? I will 
recognize myself for 5 minutes.
    So I want to pick up where Ranking Member Crenshaw left off 
in terms of morale. I appreciate some of the concepts that you 
are talking about in terms of action plans. But I would be very 
interested to hear more about the resources that are needed for 
the work of increasing morale.
    So has the Department requested resources in its fiscal 
year 2020 budget to specifically address these systemic morale 
issues that have plagued the Department's work force since its 
inception?
    Mr. Fulghum. I believe so, yes, ma'am. So one of the key 
aspects that we have uncovered in our analysis is it is not 
just about the employee. It is about the family members.
    So one of the things that is in not only Management's 
budget request, it is very modest, but in other components as 
well, is this idea of the elements of family readiness that we 
would like to focus on.
    One is reducing general stress in the workplace. Two is 
child care. Child care and dependent care is a big issue with 
many folks. So one of the things that we are exploring is this 
idea of off-duty care and partnering with organizations like 
FAA who have these type facilities for pretty modest 
investment.
    We could join them and provide some of that care that folks 
need that work these off-duty hours. There is subsidized child 
care in the Secret Service budget, as well as a couple of 
others, I believe.
    Then the other thing that we learned, one of the things 
that reinforced what we thought we already knew during the 
shutdown was financial literacy. Folks are really struggling. 
It is another contributor to stress.
    So we have a campaign under way to educate folks about what 
tools are out there, what resources are out there to help them 
adequately manage their resources.
    Ms. Torres Small. In DHS you have a lot of employees who 
are operating in surprisingly rural areas. I am thinking of 
Border Patrol specifically and Customs. Are you taking that 
into account when you are talking about morale?
    Mr. Fulghum. So I think targeted retention, targeted 
recruiting incentives are something that certainly the Border 
Patrol has looked at. The mobility program, which I am sure you 
are familiar with, ma'am, is working well and there is money in 
the budget for that as well.
    Ms. Torres Small. Great. Just following up another 
conversation that we are all interested in is I.T. and 
cybersecurity. I understand that DHS hasn't reported to 
Congress or OPM on Department-wide cybersecurity areas of 
critical needs as required by law.
    Will the DHS be reporting that information soon? Is there 
anything we can do to help with that reporting? This is 
something Ranking Member Crenshaw is also very interested in.
    Mr. Fulghum. So, ma'am, I believe you are referring to some 
of the work that GAO has done reference the coding of 
positions. So we coded those positions down to the NIST 
standard in terms of 2 digits. Then we have actually coded them 
down now to 3 digits as required, but there is still some 
clean-up to do. So I think from that regard we are in good 
shape.
    Ms. Torres Small. Just quickly in my remaining time, I 
would love to touch base on security, I mean, sorry, on 
diversity and inclusion in that strategic plan. In its 
requested budget for Fiscal Year 2020 has the Department 
allocated funds to develop either an updated strategy or 
programs directed to ensuring it has a diverse and inclusive 
work force?
    Mr. Fulghum. So we have a diversity and inclusion strategic 
plan and an operating plan that goes with it. It is 1 of our 6 
priorities within the human capital line of business.
    We do have resources requested to make sure that we can 
continue the hiring events like we have done in the past that 
target women in law enforcement and other diverse needs of the 
Department. So yes, ma'am.
    Ms. Torres Small. So if I may, that plan was written in 
2012. Are there any? Or is there a more recent one?
    Mr. Fulghum. Yes, ma'am.
    Ms. Torres Small. OK.
    Mr. Fulghum. We will make sure you get it.
    Ms. Torres Small. Fantastic, thank you.
    I will yield my time now and I will recognize for 5 minutes 
the gentleman from Louisiana, Mr. Higgins.
    Mr. Higgins. Thank you, Madam Chairwoman.
    Gentleman, let us speak candidly about morale. It has been 
brought up several times here specifically regarding Customs 
and Border Patrol. I would encourage you each to consider your 
response to this query here.
    Is there ever a day when those men and women just chill out 
at work? Every day is a fire zone, is it not?
    Mr. Fulghum. It is an extremely challenging environment.
    Mr. Higgins. Extremely challenging climate would be a very 
politically correct way to quantify it. Our Congressional 
staffs here have incredibly busy days and then we have less 
stressful days, Madam Chairwoman.
    In the most difficult days and challenging for all of us 
are when we have overlapping Congressional obligations, 
committee hearings, important votes, floor speeches, many 
meetings with constituents. Some weeks are just incredibly 
challenging.
    Then we have our district work weeks and our Congressional 
staff here in the District of Columbia and they get to catch 
up. They get to catch up a little bit. They get to breathe.
    This never happens with Customs and Border Patrol now. 
Their families suffer because talk about morale you have to 
understand camaraderie and esprit de corps. When a unit is 
pushed beyond its capabilities, its structural ability to 
perform its mission and every man and every woman feels 
responsible to their brother and their sister to be there.
    So things like family vacations, family leave are you 
finding, gentlemen, are Customs and Border Patrol taking their 
vacation and their family leave?
    Mr. Fulghum. I don't have those specific stats on what 
vacation use they are using----
    Mr. Higgins. Sure thing.
    Mr. Fulghum. But I can tell you that they are stretched, as 
the Secretary has said, and that they are working incredibly 
hard each and every day to get their jobs done.
    Mr. Higgins. Mr. Currie, you concur that there is an 
essential responsibility among these American men and women, 
these patriots that have been tasked with securing our Southern 
Border and our ports of entry and areas between our ports of 
entry.
    And that they are facing human tragedy every day in a wave 
after wave after wave. They feel responsible to each other.
    So it is our duty, it is our responsibility, Madam 
Chairwoman, and I say so with deep respect for you and my 
colleagues here.
    It is our responsibility to provide these men and women 
with the resources that they have told us they need to perform 
their missions so that they can develop a morale within a 
reasonable framework of what is expected of any human being to 
perform.
    My wife works for a large corporation and I can tell you 
payroll days, those few days, man, that is stress. I just think 
about if every day would be payroll for my wife if you would 
compare with Customs and Border Patrol.
    Every day for our staff here in the District of Columbia 
would be a day where we have 3 or 4 committee hearings and many 
constituent meeting and important votes on the floor and floor 
speeches to make and events to attend.
    Of course their morale is suffering because it is not 
because of them. It is because of us. It is up to us to make 
this correction.
    I thank you for the second round of questioning. I very 
much admire the candor that these gentlemen have displayed 
today. They are to be commended for appearing before this 
subcommittee. Madam Chairwoman, I think you are doing a 
wonderful job in service for our country.
    I feel great promise for this subcommittee that we can get 
things done. I hope we can just keep our eyes on the truth and 
drive forward despite any political or ideological barriers. I 
yield.
    Ms. Torres Small. I think we might be concluding here. I 
just deeply appreciate your time and in addition your candor, 
your clear-eyed vision of improvement.
    So thank you for your valuable testimony. The Members of 
the subcommittee may have additional questions for the 
witnesses. We ask that you respond expeditiously in writing to 
those questions.
    Without objection, the committee record shall be kept open 
for 10 days. Hearing no further business, the subcommittee 
stands adjourned.
    [Whereupon, at 3:28 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

    Questions From Chairwoman Xochitl Torres Small for Chip Fulghum
    Question 1a. To what extent is DHS considering components' leasing 
arrangements vs. mission need when determining future consolidation 
plans at St. Elizabeths?
    Answer. We are developing our NCR Real Estate Consolidation 
Strategy based on approved principles and guidance per administration 
policy and the under secretary for management. The vision of the 
strategy is to optimize the size of the Department's real property 
portfolio through consolidations, co-locations, disposal of excess 
property, and other efficiencies where appropriate. The overarching 
mission is to create operational and cultural synergies through 
geographic proximity and generate fiscal savings to reinvest in higher 
priorities. The strategy consists of several initiatives, one of which 
is to accomplish a complete NCR portfolio diagnostic and to assess the 
status of every DHS lease or owned property within the NCR and identify 
opportunities for consolidation from an enterprise vice discrete 
organization perspective. The initial phase of the NCR portfolio 
diagnostic is under way. Once fully completed, the goal is to build a 
5-year real estate consolidation plan with clear DHS priorities related 
to St Elizabeths and establish centralized planning and programming for 
DHS real estate requirements, in partnership with GSA.
    Question 1b. Please provide a comprehensive list of all the 
Department's current real property lease agreements in the National 
Capital Region, and, for each lease, please include the start date, end 
date, and annual cost.
    Question 1c. Please indicate which leases have been extended on a 
short-term basis and which will soon be because of the consolidation 
effort.
    Answer. See attached list.*
---------------------------------------------------------------------------
    * The information has been retained in committee files.
---------------------------------------------------------------------------
    Question 2. In February 2016, GAO reported that DHS had made very 
little progress in implementing its Human Resources Information 
Technology (HRIT) investment that began in 2003 to consolidate, 
integrate, and modernize the Department's human resources IT 
infrastructure. What changes has DHS made to the management of HRIT to 
justify a $10.4 million budget request for fiscal year 2020? How does 
DHS plan to spend that money?
    Answer. DHS has greatly improved its HRIT Program, as demonstrated 
by the closure of 12 out of the 14 GAO recommendations (86 percent). 
DHS continues to meet monthly with GAO auditors to discuss the 
remaining three recommendations. DHS built a strategy focused on:
  <bullet> strong governance;
  <bullet> policy changes where needed;
  <bullet> data management; and
  <bullet> consolidation to eliminate redundancy and improve automation 
        where needed.
    DHS looks to shared services--both internally and externally--
first, then we look at best in class solutions and then any solution 
that may make operational, fiscal, and business sense.
    DHS plans to spend its $10.353 million in fiscal year 2020 to 
support of the following initiatives as documented by the program's 
cost estimate approved at Acquisition Decision Event (ADE)-1:
  <bullet> $1.967 million for Position Management Solution (new 
        automation capability);
  <bullet> $2.924 million for Talent Development Management Solution 
        (replacement for PALMS);
  <bullet> $2.613 million for Employee Performance Management Solution 
        (new automation capability); and
  <bullet> $2.849 million for Human Capital Enterprise Information 
        Environment (enhanced capabilities).
    Question 3a. The Office of the Chief Human Capital Officer is 
requesting $5.6 million in fiscal year 2020 for a Cyber Talent 
Management System. The Department expects to hire 150 new cyber 
employees by the end of 2020.
    Can you please describe how this initiative will help the 
Department compete for cybersecurity talent?
    Answer. To compete for the cybersecurity talent our mission 
requires, DHS must consider best practices for managing cybersecurity 
talent and modernize the current civil service system to meet the 21st 
Century requirements of the cybersecurity field. The Department 
continues to finalize the Cybersecurity Talent Management System (CTMS) 
with a focus on several key shifts:
  <bullet> Proactive recruitment using digital tools;
  <bullet> Streamlined hiring with formal, validated assessments;
  <bullet> Market-sensitive compensation;
  <bullet> Flexible, dynamic career paths; and
  <bullet> Development-focused performance management.
    With the launch of CTMS, DHS expects to improve its ability to 
recruit, compensate, manage, and retain top cybersecurity talent, 
including individuals at all career and experience levels.
    Question 3b. What are some of the specific approaches that the 
Department is using to recruit cyber talent?
    Answer. With CTMS, the Department plans to improve cybersecurity 
recruiting outcomes by:
  <bullet> Identifying top prospective employees at key industry events 
        and cybersecurity competitions;
  <bullet> Hosting a joint hiring and recruitment event focused on 
        cyber in early fiscal year 2020 in the National Capital Region;
  <bullet> Expanding the use of digital platforms to share information 
        about DHS job opportunities and encourage applications;
  <bullet> Partnering with other agencies and the Partnership for 
        Public Service for a cyber-fellowship program;
  <bullet> Launching a Cyber Student Internship Program (OCIO) to 
        create a pipeline of cyber talent at the Department;
  <bullet> Increasing communication with prospective employees about 
        multifaceted, exciting DHS cybersecurity mission;
  <bullet> Crafting and delivering on a cybersecurity employment brand 
        built around technical excellence; and
  <bullet> Strengthening relationships with leading academic 
        intuitions, including Centers of Academic Excellence (CAEs).
    Question 3c. How does the Department plan to recruit a diverse 
cyber workforce?
    Answer. In implementing CTMS, DHS aims to recruit applicants from 
all appropriate sources in an endeavor to achieve a workforce from all 
segments of society, and in consideration of such factors as equal 
employment opportunity and public policies intended to foster a diverse 
and inclusive civil service. A core part of the proactive CTMS 
recruitment program will be targeted outreach to: Educational 
institutions, professional associations, and partner organizations, 
including Historically Black Colleges and Universities, Minority-
Serving Institutions, the Hispanic Association of Colleges and 
Universities, Asian American and Native American Pacific Islander 
Serving Institutions, Tribal Colleges and Universities, Centers of 
Academic Excellence, and Veteran Service Organizations.
    Question 4. Another $4.4 million is requested for a Cyber 
Internship Program in the Office of the Chief Information Officer.
    How does DHS plan to identify and recruit potential cyber interns 
and help ensure that they stay employed with the Department after their 
internships end?
    Answer. The Office of the Chief Information Officer (OCIO) will 
employ a strategic approach for outreach and marketing to qualified and 
prospective candidates. The strategy includes a focus on colleges and 
universities designated as National Centers of Academic Excellence 
(CAE) in Cyber Defense (CD) and Cyber Operations (CO). Solidifying 
relationships with these institutions is a critical element in building 
a pipeline and a steady stream of top-tier cybersecurity talent for the 
growing needs of the Department.
    During participation in the Cyber Student Internship Program, the 
interns will be placed in an environment that introduces them to the 
many aspects of cybersecurity challenges while learning about the 
overall mission of DHS. They will be exposed to multiple components 
through a series of rotational assignments, with periods of formal 
training and development between rotations. Mentors and coaches will be 
provided to aid in developing their understanding of the Department, 
its culture, and the role they will play in the success of the mission. 
Most importantly, these participants will experience this internship 
opportunity as a cohort. The intended objective of this opportunity is 
to develop a sense of connection to the Department, its mission, and 
one another. Success in this element is critical to retaining these 
team members beyond their internship opportunity.
      Questions From Chairman Bennie G. Thompson for Chip Fulghum
    Question 1. As GAO acknowledged in its recently-issued high-risk 
list, DHS has considerable work ahead to improve employee engagement. 
What has DHS done to understand that root causes of this morale issue? 
Is DHS doing enough to enhance morale?
    Answer. DHS is addressing the root causes of this issue by 
establishing a regular sustained, rigorous cycle of annual employee 
engagement action planning at the component level, overseen by the DHS 
Employee Engagement Steering Committee. One of the main criteria of 
these action plans is root cause analysis. In April 2018, GAO assessed 
the action plans, determined that a root cause analysis process was now 
fully effective, and closed this recommendation.
    As a result of implementing this regular cycle of action planning, 
a multi-year downward trend in the Federal Employee Viewpoint Survey 
scores turned around, with a 7-percentage point increase in the 
Employee Engagement Index since 2015. In 2016, DHS achieved a 
significant 3-percentage point increase in employee engagement scores, 
which was the greatest increase of any very large agency that year.
    Moving forward, DHS is managing several initiatives to enhance 
morale. Employee and Family Readiness is one of the Department's top 
priorities. DHS is exploring dependent care programs for employees who 
work non-traditional work hours, including collaborating with existing 
centers operated by the Federal Aviation Administration and the General 
Services Administration. In addition to physical and mental health, DHS 
is also focusing on educating employees and providing resources for 
employees' financial wellness.
    The DHS Leader Development Program (LDP) established required and 
optimum development practices and resources for new and seasoned 
leaders at 5 levels across the Department (team member, team lead, 
supervisor, manager, and executive). To date, components have 
implemented 98 percent of the LDP requirements, to ensure that all DHS 
leaders have consistent access to the programs, tools, and resources to 
continually develop their leadership capabilities.
    The Department implemented the Leadership Year initiative in fiscal 
year 2018, which featured a DHS-wide collaborative effort to produce 
and disseminate extensive leadership tools, resources, and programs to 
all employees.
    Question 2. Given your upcoming retirement from the Department, and 
the sudden departure of both the Secretary and under secretary of 
management/acting deputy secretary, what actions are you and the 
Department taking to ensure that the Management Directorate's mission 
is achieved without further disruption?
    Answer. DHS has successfully undergone transitions in the past and 
will continue to do so. Acting Secretary McAleenan and Senior Official 
Performing the Duties of the Deputy Secretary Pekoske are skilled 
leaders equipped to meet the challenge of running the Department. In 
addition, the Management Directorate has a tremendous team of seasoned 
Chief Executive Officers and office leaders with years of experience to 
support our on-going work, regardless of leadership changes.
    DHS frameworks, such as Management's Integrated Priorities, 
informed by our Unity of Effort initiatives and the DHS Strategic Plan, 
help shape the way we approach resource management, acquisition, 
information technology, and human capital management. There are 3 
priorities: Achieve Operational Excellence, Enable Mission Delivery, 
and Shape the Future, which capture all of the management functions. 
The Chief Executive Officers that head each line of business are 
leading the efforts to manage these priorities and will continue to 
move forward to implement initiatives and measure outcomes during this 
transition period. By using this guiding tool and relying on our sound 
leadership and expertise within our Directorate, we will continue the 
work that we have always done to support the Department's mission.
    Question 3. Can you please describe how the fiscal year 2020 budget 
request will be used to enhance diversity throughout the Department, 
including among senior executive staff? How is the Department altering 
its recruiting practices to build a more inclusive workforce?
    Answer. DHS is executing its fiscal year 2016-2019 Inclusive 
Diversity Strategic Plan (IDSP) and implementing it through the MGMT 
Directorate's Integrated Priorities. DHS is also working on developing 
the fiscal year 2020-2024 IDSP and ensuring that it is in line with the 
new Government-wide plan when the Office of Personnel Management 
releases it. The fiscal year 2020 budget will enable DHS to: Further 
leverage business data analytics, via the Strategic Marketing, 
Outreach, Recruitment and Engagement (SMORE) tool, to execute a 
marketing and outreach recruitment strategy; to encourage more 
utilization of recruiting via social media platforms to reach 
candidates from across the country; and to streamline the hiring 
process through innovation, evaluation, and process improvement. DHS 
plans to: Finalize and implement a Senior Executive Service (SES) 
Diversity Plan to provide guidance to DHS components on conducting 
robust internal and external outreach to fill SES vacancies; 
reemphasize the importance of preparing high quality SES application 
packages; provide guidance on preparing for SES interviews; and find 
opportunities to build on SES executive core qualifications.
    DHS also plans to build on its successes in inclusive diversity by:
  <bullet> Conducting inclusive diversity training for senior 
        executives;
  <bullet> Conducting unconscious bias training for hiring managers;
  <bullet> Implementing Inclusive Diversity Dialogues programs; and
  <bullet> Expanding employee resource groups to increase and assist in 
        recruitment and outreach efforts.
    Question 4a. Nearly 150,000 Border Patrol agents, CBP officers, TSA 
employees, and Coast Guard personnel were forced to work without pay 
during President Trump's 35-day Government shutdown. Another 12 percent 
of the DHS workforce was involuntarily furloughed. The shutdown 
extended beyond personnel. Hiring was put on hold. Contracts were 
canceled. And acquisitions were delayed.
    Please describe how President Trump's shutdown immediately impacted 
the Department's operations? Also, what might be the long-term impacts 
of the shutdown on DHS?
    Answer. While front-line operations continued, many mission-
enabling support functions ceased. The immediate impacts of the lapse 
in DHS appropriations were:
  <bullet> recruitment actions were suspended, resulting in a hiring 
        process backlog;
  <bullet> delayed entry on duty for new hires;
  <bullet> cancellation or delay of training courses taught by, and 
        attended by, DHS employees;
  <bullet> varying levels of financial hardship for DHS employees and 
        their families; and
  <bullet> mission support was provided solely to those DHS activities 
        that met the criteria to be considered excepted.
    The complete impact of the extended lapse in appropriations is not 
yet fully known. DHS continues to assess the long-term impacts of the 
lapse in appropriations.
    Question 4b. How many employees resigned from DHS during the 35-day 
partial Government shutdown? Please provide a breakdown by component.
    Answer. Please see below breakdown of the number of resignations 
for the 2018-2019 partial Government shutdown, and a comparison to the 
same period in 2017-2018.

                            DHS RESIGNATIONS
------------------------------------------------------------------------
                                                      Fiscal     Fiscal
                                                    Year 2018  Year 2019
                     Component                      (12/22/17- (12/22/18-
                                                     1/26/18)   1/26/19)
 
------------------------------------------------------------------------
CBP...............................................         65         41
CISA..............................................          7          4
FEMA..............................................        184         86
FLETC.............................................          1          2
HQ................................................         21         13
ICE...............................................         20         18
OIG...............................................          3          3
TSA...............................................        559        434
USCG..............................................         19          9
USCIS.............................................         38         32
USSS..............................................         14         13
                                                   ---------------------
      DHS Total...................................        931        655
------------------------------------------------------------------------

    Question 5. In a September 2018 report to GAO, DHS stated that 
building its acquisition workforce is a ``top priority for continuing 
to improve the way the Department does business and is a central 
component of its transformational strategy.'' How has the Acquisition 
Professional Career Program, specifically, helped the Department 
achieve its workforce goals?
    Answer. A key element of Department of Homeland Security's (DHS) 
succession plan is the Acquisition Professional Career Program (APCP). 
The APCP has significantly contributed to DHS's workforce goals. The 
APCP seeks to partner with National universities and colleges to usher 
a diverse pool of candidates into acquisition careers. Since its 
inception in 2008, the APCP has produced 316 graduates, many of whom 
have ascended to positions of increased responsibility working with 
complex contracts and acquisition programs. At present, 64.7 percent 
(or 213) of these graduates still hold positions in DHS and continue to 
contribute as technical experts, supervisors, and mentors to those more 
junior within the acquisition field. A fundamental component of the 
APCP mission is to address a critical need for recruitment and 
retention within DHS, where staffing gaps could affect the ability of 
DHS to carry out its mission. The contract specialist position is 
identified by the Office of Personnel Management as a mission-critical 
occupation (MCO) and represents 75 percent of all APCP positions.
    Question 6. DHS has taken steps to improve acquisition management, 
such as reestablishing the Joint Requirements Council in June 2014 to 
review and validate DHS acquisition requirements. However, GAO has 
reported that DHS is not using the Joint Requirements Council to its 
full potential. The council could be identifying overlapping 
requirements and making recommendations to Department leadership to 
help ensure DHS's limited resources are used most effectively. Why is 
DHS not using the council in this way? What are DHS's plans for the 
council going forward?
    Answer. Since its inception in 2014, the component led-, component-
driven JRC has produced tangible benefits by helping to refine and 
integrate mission requirements to enhance operational effectiveness 
directly and better inform the Department's main investment pillars, 
the program and budget review, and the acquisition review process. In 
GAO's most recent report, we are pleased to note their positive 
recognition of the JRC's on-going maturation of its requirements 
process, as well as efforts to strengthen the Department's requirements 
professionals through various training courses and the Joint 
Requirements Integration and Management System (JRIMS) process.
    As the JRC continues to evolve under the leadership of the new 
director, our key tasks are: (1) Govern JRIMS execution to enhance 
operational effectiveness directly and better inform the DHS's main 
investment pillars. (2) Build component requirements capacity and 
capability to provide expertise Department-wide. (3) Establish and 
oversee functionally aligned portfolio structures to enhance joint 
collaboration. The JRC is establishing a requirements specialization 
certificate program. The purpose of this credential is to expand the 
knowledge base of the DHS requirements community of practice, 
establishing a competency baseline, and continue to build capacity and 
capability.
    Additionally, the council is working to establish a requirements 
workforce model that can be applied to each of the components based on 
their unique needs. An example of the council's oversight and guidance 
within DHS, is that there are 9 joint documents (signed by multiple 
components and/or generated by joint program office) which have been 
completed since JRIMS inception, reducing duplication and application 
of resources. Through the JRC, the Department's senior leaders remain 
committed to continuing to improve the delivery to components the right 
capabilities at the right time to perform the Department's missions 
safely and effectively.
      Questions From Ranking Member Dan Crenshaw for Chip Fulghum
    Question 1a. The request of $270 million for the Office of 
Biometric Identity Management (OBIM) is $40 million more than fiscal 
year 2019 enacted level of $230 million.
    Answer. The fiscal year 2020 President's budget request is actually 
only $18.8 million more than the fiscal year 2019 enacted budget. The 
$230 million referenced only takes into account OBIM's O&S 
appropriation and does not take into account the $20 million in PC&I.

------------------------------------------------------------------------
                                                                 Delta
                                                                (Fiscal
                                         Fiscal   Fiscal Year  Year 2020
          Appropriation ($K)           Year 2019      2020       minus
                                        Enacted   President's    Fiscal
                                                     Budget       Year
                                                                 2019)
------------------------------------------------------------------------
O&S..................................   $230,808    $254,062     $23,254
PC&I.................................     20,000      15,497      -4,503
                                      ----------------------------------
      TOTAL..........................   $250,808    $269,559     $18,751
------------------------------------------------------------------------

    Question 1b. Can you detail what the additional funds support?
    Answer. The additional funds will support continued Homeland 
Advanced Recognition Technology (HART) development, provide operations 
and maintenance for both the Automated Biometric Identification System 
(IDENT) and HART systems (during the bridge period between HART roll-
out and IDENT decommissioning), and maintain the Department of Homeland 
Security enterprise-wide facial identity licenses that supports the 
capacity requirements of the Department.
    Question 1c. How will these funds prepare OBIM for future biometric 
usage across DHS?
    Answer. These funds will prepare the Office of Biometric Identity 
Management for future biometric usage across the Department by 
providing additional HART capabilities--specifically, fielding 
modalities beyond fingerprint, such as facial and iris, in order to 
help OBIM stakeholders complete their mission by adding multimodal 
biometric examiners and providing additional biometric examiner tools. 
Additionally, HART development will improve the accessibility of the 
system via a web portal for system customers and will provide a 
holistic view of identities to assist customer adjudication and 
decision making related to access, credentials, or benefits.
    Question 2a. There are a number of leadership vacancies at the 
Department.
    How is the Department working in coordination with the White House 
to prioritize and fill leadership vacancies?
    Answer. DHS Executive Leadership works with the White House on an 
on-going basis to define and align organizational requirements and 
priorities for filling key leadership vacancies.
    Question 2b. What factors are taken into consideration in 
developing a budget for offices where key leadership positions remain 
vacant?
    Answer. The budget development process is squarely focused on the 
missions of the Department and is structured to support leadership 
resourcing decisions, whether those leaders are acting or confirmed. To 
address the dynamic nature of the security environment today, DHS 
leadership updates resourcing priorities at the start of every budget 
formulation cycle. The Department's corporate budget process then 
synthesizes these priorities with component inputs so that all 
perspectives are considered as we balance near-term risk across 
portfolios with long-term investment for future capabilities.
    Question 3a. In April 2018, the Subcommittee on Oversight and 
Management Efficiency held a hearing to continue oversight over DHS's 
headquarters consolidation project at St. Elizabeths. The subcommittee 
learned that St. Elizabeths continued to face schedule delays and that 
DHS and the U.S. General Services Administration (GSA) were working to 
provide an updated plan for the project by the end of last year. The 
committee still has not seen a formal updated plan.
    What is included in the $223 million request? Are you concerned 
that appropriators will be reluctant to provide the fiscal year 2020 
budget request of $223.8 million in new funding for St. Elizabeths 
before an updated plan has been received?
    Answer. In the fiscal year 2019 annual appropriations act, Congress 
directed DHS to transfer $120 million to GSA and for those funds to be 
merged with GSA's Federal Buildings Fund (which includes $130 million 
from fiscal year 2016). These funds ($250 million) will be used to 
construct the core/shell portion of the new Cybersecurity and 
Infrastructure Security Agency (CISA) Headquarters building on the 
southern plateau of the St. Elizabeths West Campus identified in the 
on-going Draft Master Plan revision. However, no DHS tenant build-out 
funding was included in the fiscal year 2019 appropriation.
    Consequently, the fiscal year 2020 DHS budget request continues the 
plan to optimize St. Elizabeths by providing $223.8 million for tenant 
build-out costs required to deliver a complete/useable CISA 
Headquarters building. This funding will be used for the physical 
build-out of tenant spaces, including information technology, 
electronic physical security, outfitting (furniture, built-ins, storage 
systems, etc.), move planning and execution, commissioning/de-
commissioning costs and associated GSA fees (600K Gross Square Feet 
(GSF) in total). This new construction for the CISA Headquarters 
building will maximize utilization/capacity and optimize mission 
effectiveness.
    Should the fiscal year 2020 DHS request not be funded, the $250 
million, 600K GSF CISA Headquarters core and shell, previously funded 
by the Congress as noted above, will be unable to move forward. As 
noted in other responses, the inability to maintain the project 
development schedule will result in significant future cost increases, 
which can be mitigated or avoided altogether by fully funding the 
tenant build-out request.
    Question 3b. One challenge for DHS and GSA planning has been a 
failure to properly consider the impact of funding shortfalls on the 
project's schedule estimates. How will updated plans for St. Elizabeths 
take into consideration the possibility of funding shortfalls in fiscal 
year 2020 and beyond?
    Answer. Both GSA and DHS have properly planned, considered, and 
kept the Congress appraised on an annual basis as to the potential 
impacts of not providing appropriations as requested to meet the 
planned development schedule. The impacts are known and substantial:
  <bullet> Commercial leases have definitive terms/expirations. The 
        development/funding schedule is aligned to deliver new 
        facilities prior to lease expiration to avoid costly short-term 
        lease extensions.
  <bullet> Should the Congress not fund the schedule as requested, GSA 
        and DHS must decide whether to pursue short-term lease 
        extensions at premium costs of up to 20 percent, or proceed 
        with full commercial lease replacement with tenant costs 
        incurred.
  <bullet> Lessors may be unwilling to extend leases beyond the current 
        terms which will require a move regardless of funding. 
        Consequently, failure to fund the St. Elizabeths development 
        schedule may require changes to the planned occupancies.
  <bullet> There is no status quo option. DHS will incur a funding 
        liability regardless.
  <bullet> Lack of consistent GSA/DHS St. Elizabeths funding since 
        fiscal year 2011 has eroded the schedule, misaligned lease 
        expirations, and forced multiple revisions to the campus 
        occupancy plan.
  <bullet> Failure to fund the remaining segments of the campus will 
        leave the Center Building surrounded by dilapidated buildings 
        on the upper campus, sub-optimizing the investments made in 
        infrastructure and risking cost savings.
  <bullet> Construction costs increase over time. The R.S. Means 
        Historical Cost Index from 2009 through 2019 (https://
        www.rsmeansonline.com/references/unit/refpdf/hci.pdf) shows 
        construction costs have increased 26.2 percent nationally. The 
        National Capital Region (NCR) is representative of that 
        increase. Failure to fund the schedule in the year requested 
        will result in increased costs for materials and installation 
        in future years with no change in requirements.
    In summary, no matter how well GSA and DHS plan, all courses of 
action require Congressional funding for either Federal construction, 
commercial lease extensions, or commercial lease replacements. There is 
no status quo option without financial impacts. Fully funding both GSA 
and DHS development requests to complete 3 new construction facilities 
at St. Elizabeths will result in a present value 30-year savings of 
$675 million over the best available commercial lease options.
    Question 3c. It is our understanding that there is not currently a 
plan that includes all of the DHS components being at St. Elizabeths. 
If all the components cannot be housed at St. Elizabeths, are there 
still advantages to moving some components to St. Elizabeths? How will 
you determine which components will be housed there?
    Answer. Absolutely. The consolidation of the DHS Headquarters in 
the NCR (St. Elizabeths campus and commercial lease consolidation) to 
the extent possible will enhance mission effectiveness, operational 
efficiency, and unity of effort. From the very beginning of planning 
for the Consolidated DHS Headquarters at St. Elizabeths, it was 
recognized that there was no site within the NCR that could accommodate 
a complete consolidation of the Department's headquarters facilities. 
Consequently, our plans have always sought to reduce the number of 
locations from a high point of 53 and a current number of 46 to as few 
as possible with a target of 6 to 8.
    The primary challenge continues to be the lack of consistent 
funding for both GSA and DHS to execute severable project segments. 
This funding uncertainty coupled with definitive lease expirations has 
required multiple revisions to the occupancy plan.
    Full development of St. Elizabeths will enhance operations 
coordination, reduce real estate costs, and leverage the $2.5 billion 
campus investment to date (GSA: $1.6 billion, DHS: $866 million). 
Government-owned property provides DHS long-term stability and savings 
as compared to the best available commercial lease options. Fully 
funding 3 new construction facilities for CISA, I&A, and either ICE or 
FEMA will provide DHS with 30-year present value savings of $675 
million over the best available commercial lease options.
    Question 3d. How much is the total request for DHS consolidation 
between the $223 million requested in your budget and GSA's request? 
How will GSA and DHS coordinate their funding for DHS headquarters 
consolidation so that the cost and schedule priorities are being met?
    Answer. As noted above, the core and shell for the new CISA 
Headquarters at St. Elizabeths was funded through a combination of GSA 
fiscal year 2016 funds ($130 million) and the $120 million provided in 
the DHS fiscal year 2019 appropriation for GSA responsibilities. No DHS 
tenant improvement funding was provided. Consequently, GSA has $250 
million to construct the CISA HQ core and shell, and DHS requires full 
funding of the fiscal year 2020 budget request of $223.8 million to 
provide all tenant-responsible items and deliver a complete/useable 
facility.
    The GSA fiscal year 2020 request is for both the core/shell for the 
new I&A Headquarters to be located at St. Elizabeths adjacent to the 
U.S. Coast Guard Munro Headquarters Building and $50 million for second 
parking garage near Gate 1. The DHS Tenant Build-out Request for this 
facility will be made in a future fiscal year. Relocation of I&A HQ to 
St. Elizabeths will allow the Department to end its occupancy at the 
Nebraska Avenue Complex (NAC) and enable GSA, the owner of the NAC, to 
determine the best future use of the asset, including the possible 
disposal.
    Synchronization of the GSA and DHS appropriations continues to be a 
challenge for the development. Optimally GSA core and shell and DHS 
Tenant Improvement requests would occur simultaneously or in the case 
of CISA and I&A, tenant improvement dollars coming the year following 
core and shell. Full funding of the annual GSA and DHS budget requests 
will assure project segments are synchronized, executable and deliver 
complete and useable facilities.
    Question 4a. The fiscal year 2020 budget requests $119.6 million 
for financial systems modernization for USCG, TSA, and FEMA. Financial 
services modernization has faced serious schedule delays and cost 
overruns in the past. How are you and the Department heightening 
oversight over this project to avoid further waste and inefficiency?
    Answer. The Joint Program Management Office (JPMO) within the 
Department of Homeland Security (DHS), Office of the Chief Financial 
Officer (OCFO) was established to provide program management and 
governance of all DHS Financial System Modernization (FSM) programs and 
projects. The JPMO is using many of the lessons learned from the 
relationship with Department of Interior (DOI) Interior Business Center 
(IBC) as well as recommendations from GAO to improve oversight and 
management of FSM, specifically in the areas of cost, schedule, and 
performance management; vendor management; and communication. Prior to 
the Government shutdown, the program had delivered every major 
milestone on schedule at cost.
               cost, schedule, and performance management
    The JPMO is monitoring vendor progress by incorporating monthly 
cost, schedule, and performance metrics. Using the techniques of Earned 
Value Management (EVM), DHS is able to track progress toward scheduled 
milestones and ensure requirements are being delivered on time and on 
budget. These metrics also allow for early identification and 
remediation of potential cost or schedule variances.
    The JPMO has established a Program Change Control Board (P-CCB) 
comprised of Headquarters and Trio Components. The P-CCB evaluates all 
proposed changes to requirements for validated need, and cost, 
schedule, and performance impacts. The P-CCB ensures that proposed 
changes are properly documented and tracked through implementation.
                           vendor management
    DHS now has a direct relationship with the system deployment agent 
(SDA) contracted to complete system configuration, rather than working 
through an intermediary under the Federal shared service provider 
(FSSP) model. This has allowed DHS to clearly define requirements for 
deliverables, schedule, and performance. To ensure that the program 
maintains consistent staffing, cost, and schedule, the JPMO has 
required the SDA to resource load their integrated master schedule 
(IMS).
                             communication
    The JPMO acts as a single voice for FSM, establishing clear lines 
of communication between DHS leadership, components, and vendors. 
Established governance structures ensure information is disseminated 
timely to all stakeholders. The Deputy Under Secretary for Management 
(DUSM) also meets with the executive leadership of DHS, components, and 
the support vendors every month to ensure that the program is 
proceeding in an efficient manner.
                               oversight
    The DUSM meets weekly with program leadership, the CIO, CPO, and 
CFO to ensure the program stays on track. In addition, the DUSM also 
meets monthly with the system integrator and software developer.
    Question 4b. Financial system modernization has been a major long-
standing challenge for DHS. Could you clearly explain for us the 
current time line for modernizing the financial management systems for 
the Coast Guard, Federal Emergency Management Agency, and Immigration 
and Customs Enforcement?
    Answer. After transitioning the FSM software solution to a DHS Data 
Center in fiscal year 2018, DHS recommenced USCG and TSA implementation 
in Q4 fiscal year 2018 using an incremental build methodology. The 
first release, finished in December 2018, completed all global 
configurations necessary for Trio components, meeting approximately 80% 
of Trio requirements. Further releases have focused on global 
functionality to support CWMD (on track for delivery by 1Q fiscal year 
2020), TSA-specific reporting and functionality (on track for deliver 
by 2Q fiscal year 2020), and USCG-specific interfaces and 
functionality.
    USCG development will be completed by Q3 fiscal year 2020 and both 
TSA and USCG will begin full production use of the solution in Q1 
fiscal year 2021.
    DHS is currently preparing two strategic sourcing vehicles to 
competitively obtain software licenses and system integrators through 
the commercial marketplace for future component implementations, 
including FEMA and ICE. DHS submitted a Request for Information for 
Financial Management Software to Federal Business Opportunities in 
December 2018. DHS is currently in the process of incorporating vendor 
feedback. Once the strategic sourcing vehicles are finalized, FEMA, 
ICE, and ICE Customers (USCIS, DMO, S&T, and CISA) will select 
software(s) and system integrator(s) (award planned by end of fiscal 
year 2019) and then begin detailed implementation planning in a 
discovery period in fiscal year 2020. DHS has requested funding for 
FEMA in fiscal year 2020 to begin discovery and implementation.
    Question 5. December 31, 2017 but has yet to be released. How has 
the QHSR's delay and the lack of a finalized strategy for how DHS's 
resources should be allocated impacted the ability to develop a budget 
request? With the absence of a QHSR, how do you ensure that the 
requests are adequate to meet future strategic needs?
    Answer. The Department continuously evaluates the threat 
environment in order to ensure appropriate resource allocation across 
all mission areas. In order to address the dynamic nature of the 
security environment today, DHS leadership updates resourcing 
priorities at the start of every budget formulation cycle. The 
Department's corporate budget process then synthesizes these priorities 
with component inputs so that all perspectives are considered as we 
balance near-term risk across portfolios with long-term investment for 
future capabilities.
       Questions From Hon. Xochitl Torres Small for Chris Currie
    Question 1a. GAO made 14 recommendations to DHS to address HRIT's 
poor progress and ineffective management.
    What actions, if any, have been taken by DHS to address these 
recommendations?
    Answer. Since 2016, OHS has made important progress towards 
addressing our recommendations to improve its implementation and 
management of the Human Resources Information Technology (HRIT) 
investment.\1\ As of May 2, 2019, of the 14 HRIT recommendations that 
we made to the Department: Nine had been implemented;\2\ 3 had been 
overcome by events and, consequently, closed as not implemented;\3\ and 
2 remained open.
---------------------------------------------------------------------------
    \1\ GAO, Homeland Security: Oversight of Neglected Human Resources 
Information Technology Investment Is Needed, GAO-16-253 (Washington, 
DC: Feb. 11, 2016).
    \2\ We determined that 3 additional recommendations have been 
implemented since the April 3, 2019 hearing, based on actions taken by 
OHS.
    \3\ For the 3 closed, but not implemented recommendations, OHS 
moved one of HRIT's systems into operations and maintenance before 
implementing the recommendations.
---------------------------------------------------------------------------
    Examples of actions that OHS has taken to implement the 9 
recommendations include the following:
  <bullet> The HRIT Executive Steering Committee has been meeting at 
        least bi-monthly, which is a significant improvement since our 
        prior review, when we found that the committee had only met one 
        time during a nearly 2-year period. As a result, the committee 
        is better-positioned to provide support and guidance to the 
        investment and to ensure accountability for improved results.
  <bullet> The HRIT Executive Steering Committee has been consistently 
        involved in overseeing and advising HRIT, including approving 
        key program management documents, such as its operational plan.
  <bullet> In June 2016, the HRIT Executive Steering Committee approved 
        a reprioritization of HRIT's list of IT human resource areas 
        that need improvement (referred to as strategic improvement 
        opportunities).
  <bullet> DHS developed schedule and life-cycle cost estimates for 
        addressing HRIT's strategic improvement opportunities.
    DHS is in various stages of taking action on the two 
recommendations that remain open.
  <bullet> Recommendation #5: Document and track all costs, including 
        components' costs, associated with HRIT.--DHS has begun 
        tracking certain costs associated with implementing HRIT's 
        strategic improvement opportunities, including contractor labor 
        costs and certain Government labor costs. According to 
        officials in the Office of the Chief Human Capital Officer, 
        HRIT is expected to incur additional implementation costs, such 
        as data migration and subscription costs; however, none of the 
        programs associated with the strategic improvement 
        opportunities are far enough along in their implementation to 
        begin incurring such costs. We plan to continue monitoring this 
        recommendation to ensure that the Department tracks all costs 
        (including data migration and subscription costs) associated 
        with implementing HRIT.
  <bullet> Recommendation #9: The Performance and Learning Management 
        System (PALMS) program office should establish a time frame for 
        deciding whether PALMS will be fully deployed at the Federal 
        Emergency Management Agency (FEMA) and the U.S. Coast Guard 
        (USCG), and determine an alternative approach if the learning 
        and/or performance management capabilities of PALMS are deemed 
        not feasible for the U.S. Immigration and Customs Enforcement 
        (ICE), FEMA, the Transportation Security Administration (TSA), 
        or USCG.--In response to our recommendation, in February 2017, 
        DHS determined that implementing PALMS's performance management 
        capabilities across the Department was not feasible because the 
        system did not meet all of the components' needs. Accordingly, 
        DHS decided to discontinue its implementation of the 
        performance management aspects of PALMS. Subsequently, the 
        Department developed an alternative approach to delivering 
        performance management capabilities, through the use of a 
        shared services solution. DHS leadership approved this approach 
        in June 2017 and, according to HRIT officials as of March 2019, 
        they planned to implement this solution by June 2021.
    Regarding learning management, in June 2016, ICE implemented 
        PALMS's learning management capabilities. However, in April 
        2017, officials in DHS's Office of the Chief Information 
        Officer reported that the Department had decided not to deploy 
        PALMS's learning management capabilities at the other 3 
        components--FEMA, TSA, and USCG--because it was more cost-
        effective for these components to use their existing learning 
        management systems. Since PALMS was not deployed across the 
        entire Department, as originally intended, in September 2017 
        DHS committed to implementing an alternative solution to 
        providing Department-wide learning management capabilities 
        through the use of a shared services solution. As of March 
        2019, the Department had planned to deliver these capabilities 
        by February 2021. The program estimates that it will obtain DHS 
        approval on its solution approach by May 28, 2019. We are 
        continuing to monitor DHS's plans for implementing the 
        Department-wide learning management replacement solution for 
        PALMS.
    Question 1b. Given its past struggles, is DHS capable of 
effectively and efficiently spending funds on HRIT?
    Answer. Given the progress DHS has demonstrated in implementing our 
recommendations, we believe the Department is better positioned to 
effectively and efficiently spend funds on HRIT. For example, one of 
our recommendations was for DHS to ensure that the HRIT executive 
steering committee is consistently involved in overseeing and advising 
the investment. Accordingly, the HRIT Executive Steering Committee has 
since taken key actions to implement this recommendation. For example, 
the steering committee approved the investment's fiscal year 2016-2018 
operational plan in June 2016, an updated schedule estimate in June 
2017, and a rough-order-of-magnitude life-cycle cost estimate for the 
investment in March 2018. In addition, in 2018 the steering committee 
met to discuss the investment on at least a bi-monthly basis. As a 
result, the steering committee is better positioned to provide support 
and guidance to the investment and to ensure funding is spent 
effectively and efficiently.
    In addition, in response to our open recommendation that HRIT 
document and track all costs, including components' costs, associated 
with the investment, HRIT officials have begun tracking certain HRIT 
costs. Specifically, the officials have been tracking costs associated 
with contractor labor and certain Government labor costs. HRIT is 
expected to incur additional implementation costs, such as data 
migration and subscription costs; however, none of the programs 
associated with the strategic improvement opportunities are far enough 
along in their implementations to begin incurring such costs. We plan 
to continue monitoring this recommendation to ensure that the 
Department tracks all costs (including data migration and subscription 
costs) associated with implementing HRIT to ensure that funds are spent 
effectively and efficiently.
      Questions From Chairman Bennie G. Thompson for Chris Currie
    Question 1. As GAO acknowledged in its recently-issued high-risk 
list, DHS has considerable work ahead to improve employee engagement. 
What has DHS done to understand that root causes of this moral issue? 
Is DHS doing enough to enhance morale?
    Answer. In 2012, we reported that OHS and selected components 
planned actions to improve morale in response to survey results, but 
their efforts could be improved through, among other things, enhanced 
use of root cause analyses in their action planning. Without root cause 
analysis, DHS risked not being able to address the underlying concerns 
of its varied employee population. We recommended that the Office of 
the Chief Human Capital Officer and component human capital officials 
examine their root cause analysis efforts and, where absent, add the 
following: Comparisons of demographic groups, benchmarking against 
similar organizations, and linkage of root cause findings to action 
plans.
    As of January 2018, DHS had taken steps to address this. For 
example, TSA conducted root cause analysis and linked findings to 
action planning by first conducting statistical analysis of employee 
satisfaction drivers and related focus group findings to identify high-
priority areas for action. They then used that information as the basis 
for TSA employee morale action planning. USSS conducted a benchmarking 
exercise where they compared the morale of their employees to various 
agencies, including the U.S. Capitol Police, U.S. Coast Guard, and the 
Drug Enforcement Administration. The benchmarking findings were then 
used to develop action planning based on lessons learned at the other 
agencies. FEMA conducted demographic group comparisons, looking at 
employee gender, tenure with FEMA, age, and ethnicity, and used the 
information to inform senior leadership and subsequent employee 
engagement action planning. Other components, including ICE, NPPD, U.S. 
Coast Guard, CBP, USCIS, also provided information that addressed our 
recommendation. As a result of these steps, DHS is better positioned to 
understand and address employee morale challenges.
    However, DHS's morale problem remains--ranking last among large 
agencies on employee engagement--indicating that concerted effort is 
needed by DHS leadership to address the challenge. Morale is not 
uniformly low at DHS, the U.S. Coast Guard, for example, is 
consistently above the Federal average, indicating there are 
opportunities to improve.
    Question 2. What is the value of the Quadrennial Homeland Security 
Review and the downside of not having a current examination of the 
homeland security strategy of the Nation?
    Answer. The Implementing Recommendations of the 9/11 Commission Act 
of 2007 (9/11 Commission Act) requires that beginning in fiscal year 
2009 and every 4 years thereafter, DHS conduct a review that provides a 
comprehensive examination of the homeland security strategy of the 
United States.\4\ According to the 9/11 Commission Act, the review is 
to delineate and update, as appropriate, the National homeland security 
strategy, outline and prioritize critical homeland security missions, 
and assess the organizational alignment of DHS with the homeland 
security strategy and missions. The Act further requires that DHS 
conduct the quadrennial review in consultation with stakeholders, such 
as heads of Federal agencies; key officials of the Department; State, 
local, and Tribal governments; private-sector representatives; and 
academics and other policy experts.
---------------------------------------------------------------------------
    \4\ Pub. L. No. 110-53,  2401(a), 121 Stat. 266, 543-45 (2007); 6 
U.S.C.  347.
---------------------------------------------------------------------------
    The Quadrennial Homeland Security Review (QHSR) is an opportunity 
for OHS leadership and homeland security stakeholders to come together 
and identify the key homeland security strategic priorities for a 4-
year time horizon. There are 3 key downsides to not having the QHSR 
this cycle. First, stakeholder perspectives (both Federal and non-
Federal) are not informing DHS's strategic planning to the extent that 
they could if the QHSR were completed and released. Second, OHS was 
maturing an extensive risk analysis intended to assist with identifying 
the most relevant strategic priorities for the near future. Without the 
QHSR, we don't know whether that analysis was completed and if it is 
informing DHS's strategic direction. And third, in years past, the QHSR 
was the foundational document for DHS's Strategic Plan. It's unclear 
what is informing DHS's on-going strategic plan development if the QHSR 
is not finalized and published.
      Questions From Ranking Member Dan Crenshaw for Chris Currie
    Question 1. Acquisition management has been a long-standing issue 
for DHS. Can you identify the biggest areas of concern and steps OHS 
has taken to address these issues? What additional steps can DHS take 
to improve acquisition management? What steps can DHS take to improve 
the Joint Requirements Council and use it to fulfill its intended 
purpose to identify overlapping requirements and allocate resources 
more efficiently?
    Answer. DHS has made incremental improvements to the management of 
its major acquisition programs. For example, in 2017 we found that, for 
the first time since GAO began its annual assessment, all of the 
programs in our review had Department-approved baselines with cost, 
schedule, and performance goals. However, we have found that DHS has 
struggled to consistently apply its acquisition policy, which has led 
to execution challenges for some of its major acquisition programs. For 
example, during 2017, less than half of the major acquisition programs 
we reviewed with approved schedule and cost goals were on track.
    DHS has taken steps to strengthen requirements development across 
the Department, such as reestablishing the Joint Requirements Council 
in June 2014. However, opportunities remain to further strengthen DHS's 
acquisition process by using the Joint Requirements Council to impact 
DHS's budget. The council could better fulfill its mission by 
identifying overlapping or common requirements between DHS components 
and by making recommendations to senior leadership to help ensure that 
DHS uses its finite investment resources wisely consistent with the 
responsibilities contained within its charter. These responsibilities 
include considering the long-term implications of investments, 
identifying competing and/or complimentary programs in the out years, 
and championing a balanced portfolio of investments by establishing 
priorities that combine near-term operational improvements with long-
term strategic planning.
    Question 2a. In January 2016, GAO made 14 recommendations to DHS to 
address poor progress and ineffective management with the Human 
Resources Information Technology (HRIT). For example, some of the 
recommendations are for DHS to update and maintain a schedule estimate 
for when it plans to implement each of the strategic improvement 
opportunities and develop a complete life-cycle cost estimate for the 
implementation of HRIT. DHS has reported that 6 of the 14 
recommendations have been implemented. Has DHS provided any time lines 
for when it plans to implement the remaining 8 recommendations?
    Answer. DHS provided time frames for implementing each of our 
recommendations to improve its implementation and management of the 
HRIT investment, and executed against those time frames.\5\ As such, 
since 2016, DHS has made important progress toward addressing our 
recommendations. As of May 2, 2019, of the 14 HRIT recommendations: 
Nine had been implemented;\6\ 3 had been overcome by events and, 
consequently, closed as not implemented;\7\ and 2 remained open.
---------------------------------------------------------------------------
    \5\ GAO, Homeland Security: Oversight of Neglected Human Resources 
Information Technology Investment Is Needed, GAO-16-253 (Washington, 
DC: Feb. 11, 2016).
    \6\ We determined that 3 additional recommendations have been 
implemented since the April 3, 2019 hearing, based on actions taken by 
DHS.
    \7\ For the 3 closed, but not implemented, recommendations, DHS 
moved one of HRIT's systems into operations and maintenance before 
implementing the recommendations.
---------------------------------------------------------------------------
    Examples of actions that OHS has taken to implement the 9 
recommendations include:
  <bullet> The HRIT Executive Steering Committee has been meeting at 
        least bi-monthly, which is a significant improvement from our 
        prior review where we found that the committee only met one 
        time during a nearly 2-year period. As a result, the committee 
        is better positioned to provide support and guidance to the 
        investment and to ensure accountability for improved results.
  <bullet> The HRIT Executive Steering Committee has been consistently 
        involved in overseeing and advising HRIT, including approving 
        key program management documents, such as its operational plan.
  <bullet> In June 2016, the HRIT Executive Steering Committee approved 
        a reprioritization of HRIT's list of IT human resource areas 
        that need improvement (referred to as strategic improvement 
        opportunities).
  <bullet> DHS developed schedule and life-cycle cost estimates for 
        addressing HRIT's strategic improvement opportunities.
    DHS is in various stages of taking action on the two 
recommendations that remain open.
  <bullet> Recommendation #5: Document and track all costs, including 
        components' costs, associated with HRIT.--DHS has begun 
        tracking certain costs associated with implementing HRIT's 
        strategic improvement opportunities, including contractor labor 
        costs and certain Government labor costs. According to 
        officials in the Department's Office of the Chief Human Capital 
        Officer, HRIT is expected to incur additional implementation 
        costs, such as data migration and subscription costs; however, 
        none of the programs associated with the strategic improvement 
        opportunities are far enough along in their implementations to 
        begin incurring such costs. We will continue to monitor this 
        recommendation to ensure that the Department tracks all costs 
        (including data migration and subscription costs) associated 
        with implementing HRIT.
  <bullet> Recommendation #9: The Performance and Learning Management 
        System (PALMS) program office should establish a time frame for 
        deciding whether PALMS will be fully deployed at the Federal 
        Emergency Management Agency (FEMA) and the U.S. Coast Guard 
        (USCG), and determine an alternative approach if the learning 
        and/or performance management capabilities of PALMS are deemed 
        not feasible for the U.S. Immigration and Customs Enforcement 
        (ICE), FEMA the Transportation Security Administration (TSA), 
        or USCG.--In response to our recommendation, in February 2017, 
        DHS determined that implementing PALMS's performance management 
        capabilities across the Department was not feasible because the 
        system did not meet all of the components' needs. Accordingly, 
        DHS decided to discontinue its implementation of the 
        performance management aspects of PALMS. Subsequently, the 
        Department developed an alternative approach to delivering 
        performance management capabilities through the use of a shared 
        services solution. DHS leadership approved this approach in 
        June 2017, and, according to HRIT officials as of March 2019, 
        they planned to implement this solution by June 2021.
    Regarding learning management, in June 2016, ICE implemented 
        PALMS's learning management capabilities. However, in April 
        2017, officials in DHS's Office of the Chief Information 
        Officer reported that the Department had decided not to deploy 
        PALMS's learning management capabilities at the other 3 
        components--FEMA, TSA, and USCG--because it was more cost-
        effective for these components to use their existing learning 
        management systems. Since PALMS was not deployed across the 
        entire Department, as originally intended, in September 2017 
        DHS committed to implementing an alternative solution to 
        providing Department-wide learning management capabilities 
        through the use of a shared services solution. As of March 
        2019, the Department planned to deliver these capabilities by 
        February 2021. The program estimates that it will obtain DHS 
        approval on its solution approach by May 28, 2019. We are 
        monitoring DHS's plans for implementing the Department-wide 
        learning management replacement solution for PALMS.
    Question 2b. To the extent DHS has not implemented the remaining 8 
recommendations, what is the risk to DHS's IT Management and Management 
Integration?
    Answer. Given the progress DHS has demonstrated in implementing our 
recommendations, we believe DHS has lowered its risk of ineffective IT 
management. Specifically, one of the key IT management areas that we 
monitor is the level of oversight and on-going support officials from 
the Office of the Chief Information Officer provide to troubled 
investments to improve their cost, schedule, and performance. In our 
March 2019 high-risk report, we pointed out that DHS had demonstrated 
improvement in this key IT management area due, in part, to the 
Department taking actions to implement the HRIT recommendations 
associated with establishing cost and schedule estimates.
    Progress integrating DHS management functions requires a concerted 
DHS effort to develop consistent or consolidated processes and systems 
across its management functions, including IT management and 
acquisition management. Implementing outstanding GAO recommendations, 
including those related to HRIT, will further DHS's progress in this 
regard.

                                 [all]
</pre></body></html>
